June 12, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Gloria L. Jarmon/
                Deputy Inspector General for Audit Services


SUBJECT:        Review of New Mexico Medicaid Personal Care Services Provided by Clovis
                Homecare, Inc. (A-06-09-00117)


Attached, for your information, is an advance copy of our final report on New Mexico Medicaid
personal care services provided by Clovis Homecare, Inc. We will issue this report to the New
Mexico Human Services Department, Medical Assistance Division, within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00117.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
                                                                1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
June 15, 2012

Report Number: A-06-09-00117

Ms. Julie A. Weinberg
Director
New Mexico Human Services Department
Medical Assistance Division
2025 South Pacheco
Santa Fe, NM 87504

Dear Ms. Weinberg:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Mexico Medicaid Personal Care Services
Provided by Clovis Homecare, Inc. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071 or through email at
Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-09-00117 in all correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Julie A. Weinberg


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF NEW MEXICO MEDICAID
PERSONAL CARE SERVICES PROVIDED
    BY CLOVIS HOMECARE, INC.




                        Daniel R. Levinson
                         Inspector General

                            June 2012
                          A-06-09-00117
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (the State agency), is responsible for administering the Medicaid
program.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for
individuals with intellectual disabilities, or an institution for mental disease. The services must
be (1) authorized by a physician pursuant to a plan of treatment or, at the State agency’s option,
otherwise authorized in accordance with a service plan approved by the State agency;
(2) provided by an attendant who is qualified to provide such services and who is not the
recipient’s legally responsible relative; and (3) furnished in a home and, at the State agency’s
option, at another location. Examples of personal care services include, but are not limited to,
cleaning, shopping, grooming, and bathing.

The State agency contracts with a third-party assessor to perform an in-home assessment of each
recipient that determines the types and amounts of care needed and to develop a personal care
services plan. In addition, New Mexico law requires a supervisor from the personal care services
provider agency to visit each recipient or his or her personal representative in the recipient’s
home monthly. The State agency periodically reviews provider agencies to ensure compliance
with Federal and State requirements.

The State agency reported to CMS personal care services expenditures of approximately
$57.6 million ($44.5 million Federal share) from October 1, 2008, through March 31, 2009. Of
that amount, Clovis Homecare, Inc. (Clovis), a personal care services provider in Clovis,
New Mexico, received $4,711,258 ($3,638,976 Federal share).

OBJECTIVE

Our objective was to determine whether the State agency ensured that Clovis’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

SUMMARY OF FINDINGS

The State agency did not always ensure that Clovis’s claims for Medicaid personal care services
complied with certain Federal and State requirements. Of the 100 claims in our sample, 76



                                                  i
(totaling $20,335) complied with requirements, but 24 (totaling $5,670) did not. Five of the
twenty-four claims were partially allowable. The allowable portion of the five claims was $956.
The 24 claims contained a total of 28 deficiencies: 21 deficiencies on insufficient attendant
qualifications and 7 deficiencies on other issues. As a result, Clovis improperly claimed $4,714
for the 24 claims.

Based on our sample results, we estimated that Clovis improperly claimed at least $404,817
(Federal share) for personal care services during the period October 1, 2008, to March 31, 2009.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government the $404,817 paid to Clovis for unallowable personal
       care services and

   •   ensure that personal care services providers maintain evidence that they comply with
       Federal and State requirements.

CLOVIS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Clovis disagreed with almost all of our findings.
Clovis’s comments are included in their entirety as Appendix D.

Along with its comments, Clovis provided documentation that it did not provide during our
review. After reviewing the documentation, we reevaluated some claims and determined that 18
complied with Federal and State regulations. We revised the findings and recommendations
accordingly.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, the State agency disagreed with our recommended
refund amount. The State agency said that five of the six categories of deficiencies (i.e.,
tuberculosis testing, supervisory visits, cardiopulmonary resuscitation (CPR) and first aid
certifications, physician authorization, and prior approval of legal guardian) did not justify
withholding Federal funds because only a small number of files were deficient. The State
agency also said that the documentation requirements for four of the six categories (i.e.,
tuberculosis testing, supervisory visits, CPR and first aid certifications, and prior approval of
legal guardian) are not Federal requirements; they are State requirements, which do not require
recovery of payments. The State agency acknowledged that the remaining category (i.e.,
unsupported attendant service units) supports the conclusion that an overpayment was made but
said that the deficiency did not support extrapolating to the universe because (1) the finding does
not reveal a pattern of noncompliance and (2) the overpayment was within the tolerance limits
established by certain Federal programs.




                                                 ii
The State agency’s comments are included in their entirety as Appendix E.

We stand by our reported findings and recommendations. The deficiencies cited in the report are
based on significant service-related requirements and are too numerous to be dismissed as
infrequent occurrences. Regarding the State agency’s assertion that requirements for four of the
six categories of deficiencies are non-Federal requirements, three (i.e., tuberculosis testing, CPR
and first aid certifications, and prior approval of legal guardian) are actually based on Federal
law and regulations, which require personal care attendants to be qualified. Further,
requirements for supervisory visits are integral to the contract between the State and the personal
care services agency, which directly affects how the State provides personal care services to its
beneficiaries.

Regarding the State agency’s assertion that the findings do not reveal a pattern of
noncompliance, extrapolating the results of a statistically valid sample to a population has a high
degree of probability of being close to the results of a 100-percent review of the same
population. Our statistically valid estimates support our findings and estimated overpayment
amount. In addition, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits
are intended to provide an independent assessment of U.S. Department of Health and Human
Services programs, operations, grantees, and contractors. The tolerance limits the State agency
cited in its comments about certain Federal programs do not apply to our audits.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              New Mexico’s Personal Care Services Program .................................................1
              Federal and State Requirements...........................................................................1
              Personal Care Services Expenditures...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          ATTENDANT QUALIFICATION DEFICIENCIES .....................................................4
               Tuberculosis Testing ............................................................................................4
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................4

          OTHER DEFICIENCIES ................................................................................................5
               Supervisory Visits ................................................................................................5
               Unsupported Units Claimed .................................................................................5
               Physician Authorization .......................................................................................5
               Missing Prior Approval for Personal Care Services
                Provided by a Legal Guardian or Attorney-in-Fact ..........................................5

          EFFECT OF DEFICIENCIES .........................................................................................5

          RECOMMENDATIONS .................................................................................................6

          CLOVIS COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................6
               Conditions of Payment Versus Conditions of Participation ................................6
               Substantial Compliance .......................................................................................7
               Sampling Methodology........................................................................................8
               Tuberculosis Testing ............................................................................................9
               Cardiopulmonary Resuscitation and First Aid Certifications ..............................10
               Supervisory Visits ................................................................................................10
               Unsupported Units Claimed .................................................................................11
               Physician Authorization .......................................................................................12




                                                                    iv
          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
          RESPONSE…………………………………………………………………………….12
               State Agency Comments ......................................................................................12
               Office of Inspector General Response ................................................................13

OTHER MATTER.....................................................................................................................14

          MEAL PREPARATION AND HOUSEKEEPING SERVICES PAID FOR
           RECIPIENTS LIVING WITH ATTENDANTS ...........................................................14

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: REASONS FOR DEFICIENT CLAIM LINES

          D: CLOVIS COMMENTS

          E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




                                                                 v
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New Mexico, the Human Services Department,
Medical Assistance Division (State agency), is responsible for administering the Medicaid
program.

New Mexico’s Personal Care Services Program

The New Mexico personal care services program provides a wide range of services for the
elderly and individuals with a qualifying disability. The goal of the personal care services
program is to improve recipients’ quality of life and prevent them from having to enter a nursing
facility. The State agency requires recipients to obtain a physician authorization form that
documents the medical need for personal care services. For each recipient, the State agency
contracts with a third-party assessor that performs an in-home assessment to determine the types
and amounts of care needed and to develop a personal care services plan (PCSP). The third-
party assessor uses those assessments and the physician authorization forms to prepare
recipients’ weekly schedule of services, which typically are in effect for 1 year.

Federal and State Requirements

The State agency must comply with Federal and State requirements when determining and
redetermining whether recipients are eligible for personal care services. Pursuant to
section 1905(a)(24) of the Act and implementing Federal regulations (42 CFR § 440.167),
personal care services may be provided to individuals who are not inpatients at a hospital or
residents of a nursing facility, an intermediate care facility for individuals with intellectual
disabilities, 1 or an institution for mental disease. The services must be (1) authorized for an
individual by a physician pursuant to a plan of treatment or, at the State agency’s option,
otherwise authorized in accordance with a service plan approved by the State; (2) provided by an
attendant who is qualified to provide such services and who is not the recipient’s legally
responsible relative; and (3) furnished in a home and, at the State agency’s option, at another
location.

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.


1
 Changes in terminology are based on Rosa’s Law (P.L. No. 111-256). For more information, see CMS Final Rule,
77 Fed. Reg. 29002, 29021, and 29028 (May 16, 2012).


                                                      1
Circular A-87, Attachment A, section C.1.c., states that to be allowable, costs must be authorized
or not prohibited by State or local laws or regulations.

New Mexico Administrative Code (NMAC) section 8.315.4.9(A) states that personal care
services are delivered pursuant to a PCSP and (1) include a range of services to recipients who
are unable to perform some or all activities of daily living because of a disability or functional
limitation(s); (2) permit an individual to live in his or her home rather than an institution and to
maintain or increase independence; and (3) include, but are not limited to, bathing, dressing,
grooming, and shopping.

NMAC section 8.315.4.11A(17) states that provider agencies are responsible for maintaining
appropriate records of services provided to recipients. NMAC section 8.315.4.11 defines
(1) attendant qualifications related to tests for tuberculosis (TB), annual training,
cardiopulmonary resuscitation (CPR) and first aid training, and criminal background checks and
(2) the provider agency’s responsibility to maintain documentation on attendant qualifications.
NMAC section 8.315.4.11A(31) requires provider agencies to conduct a monthly supervisory
visit with each recipient or his or her personal representative in the recipient’s home. The State
agency periodically reviews personal care services provider agencies to ensure compliance with
Federal and State requirements. NMAC section 8.315.4.11A(21) requires the State agency to
review a written justification for, and issue an approval (if warranted) of, instances in which any
personal care services will be provided by the recipient’s legal guardian or attorney-in-fact.

Personal Care Services Expenditures

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). From October 1, 2008, to March 31, 2009, the FMAP in New Mexico was
77.24 percent. The State agency reported to CMS personal care services expenditures of
approximately $57.6 million ($44.5 million Federal share) from October 1, 2008, through
March 31, 2009. Of that amount, Clovis Homecare, Inc. (Clovis), a personal care services
provider in Clovis, New Mexico, received $4,711,258 ($3,638,976 Federal share).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency ensured that Clovis’s claims for
reimbursement of Medicaid personal care services complied with certain Federal and State
requirements.

Scope

This audit covered the $4,711,258 the State agency paid to Clovis for 17,992 claim lines
(hereafter referred to as “claims”) for the period October 1, 2008, through March 31, 2009. We
limited our review of internal controls to the State agency’s oversight of personal care services
providers and Clovis’s procedures for maintaining documentation related to attendants and
recipients.



                                                  2
We conducted our fieldwork at the State agency office in Santa Fe, New Mexico; the third-party
assessor’s office in Albuquerque, New Mexico; and the Clovis office in Clovis, New Mexico.

Methodology

To accomplish our objective, we:

       •   reviewed Federal requirements for the Medicaid personal care services program;

       •   reviewed State documents for the personal care services program: the New Mexico
           State plan amendment (Attachment 3.1-A, effective September 1, 2000) and the
           NMAC;

       •   interviewed State agency officials to gain an understanding of the personal care
           services program and the State agency reviews completed before the start of our
           fieldwork;

       •   obtained from the State agency all claim data for personal care services that were paid
           from October 1, 2008, through March 31, 2009, and reconciled the totals to the
           amounts claimed during the same period on the Form CMS-64, Quarterly Medicaid
           Statement of Expenditures for the Medical Assistance Program;

       •   totaled the paid-claims data by provider;

       •   selected Clovis to review based on payments for personal care services claims it
           received (totaling $4,711,258) for the audit period;

       •   selected a random sample of 100 Clovis claims (Appendix A);

       •   met with Clovis officials to gain an understanding of Clovis’s policies and procedures
           and of documentation in Clovis’s recipient and attendant personnel files;

       •   obtained recipient documentation from the third-party assessor and Clovis for each
           sampled item;

       •   identified the attendant(s) included in each sampled item and obtained documentation
           Clovis maintained in the corresponding personnel files;

       •   evaluated the documentation obtained for each sample item to determine whether it
           complied with Federal and State Medicaid requirements;

       •   discussed the results of our audit with officials from CMS, the State agency, and
           Clovis;

       •   gave Clovis an opportunity to provide any additional support for claims with
           deficiencies;


                                                3
         •   calculated the value of the unallowable reimbursement Clovis received for the
             sampled items; and

         •   estimated the unallowable Federal Medicaid reimbursement paid for the 17,992
             claims (Appendix B).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

The State agency did not always ensure that Clovis’s claims for Medicaid personal care services
complied with certain Federal and State requirements. Of the 100 sampled items, 76 claims
(totaling $20,335) complied with requirements, but 24 (totaling $5,670) did not. Five of the
twenty-four claims were partially allowable. The allowable portion of the five claims was $956.
The 24 claims contained a total of 28 deficiencies: 21 deficiencies on insufficient attendant
qualifications and 7 deficiencies on other issues. As a result, Clovis improperly claimed $4,714
for the 24 sampled items.

See Appendix C for details of the deficiencies identified by sample claim.

Based on our sample results, we estimated that Clovis improperly claimed at least $404,817
(Federal share) for personal care services during the period October 1, 2008, through March 31,
2009.

ATTENDANT QUALIFICATION DEFICIENCIES

Tuberculosis Testing

NMAC section 8.315.4.11A(37) requires provider agencies to ensure that their attendants obtain
a TB skin test or chest x-ray upon initial employment and to document the results of TB tests and
x-rays in attendant files. NMAC specifies that an attendant who tests positive for TB cannot
begin providing services until he or she receives appropriate treatment. For 20 of the 100
sampled items, Clovis could not provide evidence that the attendants had received a TB skin test
or chest x-ray or that the attendants had tested negative for TB or had been appropriately treated
before the dates of service.

Cardiopulmonary Resuscitation and First Aid Certifications

NMAC section 8.315.4.11A(2)(d) requires provider agencies to maintain copies of all CPR and
first aid certifications in the attendants’ files and to ensure that these certifications are current. 2
2
  The entities that provided the training determined how long the certificates were valid, typically 1 to 3 years from
the date the attendants passed the courses.


                                                           4
For 1 of the 100 sampled items, Clovis did not provide evidence that the attendant was certified
in CPR and/or first aid on the dates of service.

OTHER DEFICIENCIES

Supervisory Visits

NMAC section 8.315.4.11A(31) requires attendant supervisors to meet with recipients and/or
their personal representatives in the recipients’ homes at least once a month. For 4 of the 100
sampled items, Clovis did not provide evidence that the attendants’ supervisors had made the
required visits.

Unsupported Units Claimed

NMAC section 8.315.4.11A(13) requires provider agencies to maintain records that fully
disclose the extent and nature of the services furnished to the recipient. For 1 of the 100 sampled
items, Clovis did not have evidence to support the number of units claimed for attendant
services.

Physician Authorization

Federal regulations (42 CFR § 440.167) require personal care services to be authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State. In addition, NMAC requires third-party
assessors or their designees to maintain for each recipient evidence of a physician authorization
form signed by a physician, physician assistant, nurse practitioner, or clinical nurse specialist
(section 8.315.4.16A). For 1 of the 100 sampled items, Clovis did not provide documentation of
a physician authorization.

Missing Prior Approval for Personal Care Services Provided by a Legal Guardian or
Attorney-in-Fact

NMAC section 8.315.4.11A(21) requires prior State agency approval for any personal care
services provided by the recipient’s legal guardian or attorney-in-fact. For 1 of the 100 sampled
items, Clovis did not provide evidence that the State agency had issued prior approval.

EFFECT OF DEFICIENCIES

Based on our sample, we estimated that Clovis improperly claimed at least $404,817 (Federal
share) for personal care services.




                                                 5
RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government the $404,817 paid to Clovis for unallowable personal
        care services and

    •   ensure that personal care services providers maintain evidence that they comply with
        Federal and State requirements.

CLOVIS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, Clovis disagreed with most of our findings. Clovis’s
comments, which we summarize below, are included in their entirety as Appendix D. 3

Along with its comments, Clovis provided documentation that it did not provide during our
review. After reviewing the documentation, we reevaluated some claims and determined that 18
complied with Federal and State regulations. 4 We revised the findings and recommendations
accordingly.

Conditions of Payment Versus Conditions of Participation

Clovis Comments

Clovis stated that recoupment is not an appropriate remedy for the deficiencies noted in the
report because compliance with personal care services 5 regulations is not a condition of
payment; it is a condition of participation. Clovis stated that in the context of the False Claims
Act, courts have frequently held that a provider is not liable for repayment or recoupment for
failures to comply with governmental regulations “unless, as a result of such acts, the provider
knowingly asked the government to pay amounts it did not owe.” Clovis added that personal
care services regulations support recoupment of payments only when there is inappropriate
billing of services in accordance with NMAC section 8.315.4.11(A)(14) and that the basis for
recoupment is not triggered by the various alleged deficiencies outlined in the draft report
(pages 2 to 3).




3
 Clovis did not head its comments by finding (e.g., “TB Testing,” “Unsupported Units Claimed”). In our summary
of Clovis’s comments below, we provide page references to Appendix D to assist the reader.
4
 We based our original findings and our reevaluations on NMAC section 8.315.4, which was implemented on
July 1, 2004, and was in effect during our audit period. The regulations have since been revised.
5
  In its comments on our report, Clovis used the terms “PCO” and “personal care option,” which are synonymous
with the term “personal care services” that we used throughout the report. For consistency, we will use only the
term “personal care services.”


                                                         6
Office of Inspector General Response

To provide a valid and payable service, personal care services must meet Federal requirements in
section 1905(a)(24)(B) of the Act and implementing regulations at 42 CFR § 440.167, which
require personal care services to be provided by a qualified attendant. To be a qualified
attendant in New Mexico, the attendant must meet the NMAC requirements related to the
attendant qualifications discussed above. Therefore, the NMAC attendant qualification
requirements are conditions of payment because an attendant who is not qualified cannot provide
valid personal care services as defined by Federal statutes and regulations. We based the other
deficiencies we identified on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

Substantial Compliance

Clovis Comments

Clovis stated that it was in substantial compliance with personal care services regulations.
Clovis said that the Tenth Circuit Court of Appeals had observed that perfect compliance was not
a necessary condition to receive Medicare reimbursement and that it believes the same is true for
Medicaid reimbursement. Clovis stated that at no time was the health or safety of any client at
risk, nor was care provided in a manner that would cause harm to its clients. Clovis added that
we failed to apply a reasonableness standard to compliance with the regulations. Specifically,
we failed to acknowledge that Clovis had a 94-percent or better compliance rate for nearly each
of the six categories that we reviewed. Clovis stated that many of the technical deficiencies that
were noted relate to requirements that the New Mexico Human Services Department does not
impose on personal care attendants under the consumer-directed care model (pages 4 to 5). 6

Office of Inspector General Response

We evaluated each sample item for compliance with Federal and State regulations. In addition,
we based the attendant qualification deficiencies cited in the report on significant service-related
requirements. Taken as a whole, these deficiencies are sufficiently numerous and widespread to
be considered more than just technical deficiencies; they are quality of care issues. In addition,
all 17,992 claims in Clovis’ population were for services related to the consumer-delegated
model.




6
  Office of Inspector General note: New Mexico personal care services were provided under two models:
consumer-delegated and consumer-directed. The consumer-delegated model (NMAC section 8.315.4.11) placed the
responsibility for ensuring attendant qualifications (e.g., annual training) on the provider. The consumer-directed
model (NMAC section 8.315.4.10) did not place responsibility for ensuring attendant qualifications (i.e., annual
training, CPR and first aid certifications, and TB testing) on the provider.


                                                        7
Sampling Methodology

Clovis Comments

Clovis stated that our recommendation for recoupment using an extrapolation ratio of 1 to 179
(i.e., our sample of 100 out of 17,992 claims) was unprecedented in New Mexico and added that
it disputed the statistical validity of both our sample size and extrapolation.

Clovis said that we appeared to have chosen a sample of 100 claims, not based on any statistical
analysis of the variance, or heteroskedasticity, of the pool but on the assumption that this would
be sufficient and, perhaps, on the simplicity of using a round number. Clovis added that this
methodology is contrary to accepted statistical methodology, as well as to the guidance provided
in the CMS Medicare Program Integrity Manual.

Clovis also stated that our sample rate of 0.556 was insufficient to support our conclusions
because the number of claims (17,992), attendants (1,114), and clients (735) during the sample
period would be expected to exhibit variance. Clovis stated that the results demonstrate the
intrinsic variability of the sample and the need for additional sampling. Clovis stated that the
high variability and small sample size yielded unreliable results when extrapolated to the
universe of claims (pages 6 to 7).

Office of Inspector General Response

Courts have long upheld the validity of using sampling and extrapolation in audits of Federal
health programs. 7 In particular, one court found that “[p]rojection of the nature of a large
population through review of a relatively small number of its components has been recognized as
a valid audit technique.” 8 Courts have not determined what percentage of the entire universe
must be sampled for a projection to be held valid; 9 however, the type of sample used here—a
simple random sample—is recognized as valid for extrapolation purposes. 10 Further, such
statistical sampling and methodology may be used in cases seeking recovery against States,
individual providers, and private institutions.11



7
  See, e.g., State of Georgia v. Califano, 446 F. Supp. 404, 409-410 (N.D. Ga. 1977) (a ruling that sampling and
extrapolation are valid audit techniques for programs under Title IV of the Social Security Act); Ratanasen v.
California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993) (a ruling that simple random sampling and
subsequent extrapolation were valid techniques to calculate Medi-Cal overpayments); Illinois Physicians Union v.
Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982) (a ruling that random sampling and extrapolation were valid statistical
techniques for calculating Medicaid overpayments claimed against an individual physician).
8
    State of Georgia v. Califano, 446 F. Supp. 404, 409 (N.D. Ga. 1977).
9
    Michigan Department of Education v. U.S. Department of Education, 875 F. 2d 1196, 1206 (6th Cir. 1989).
10
     Ratanasen v. California Dept. of Health Servs., 11 F. 3d 1467, 1471-72 (9th Cir. 1993).
11
     Illinois Physicians Union v. Miller, 675 F. 2d 151, 155-56 (7th Cir. 1982).



                                                            8
We did rely on a statistically valid sample. 12 In Sample Design in Business Research,
W. Edwards Deming (1960) states: “An estimate made from a sample is valid if it is unbiased or
nearly so and if we can compute its margin of sampling error for a given probability.” We select
our samples according to principles of probability (every sampling unit has a known, nonzero
chance of selection). We use the difference estimator (an unbiased estimator) for monetary
recovery and recommend recovery at the lower limit of the 90-percent, two-sided confidence
interval. We use the sampling error in the computation of the 90-percent, two-sided confidence
interval. In addition, the term “heteroskedasticity” is ordinarily used in time series or regression
analysis; because we used a simple random sample and the difference estimator to arrive at the
estimates in the draft report, this term is not relevant.

If we had used a larger sample size, as Clovis’ comments imply we should have, the amount we
recommended for recovery from Clovis probably would have been higher. A larger sample size
usually yields estimates with better precision without affecting the estimate of the mean. Better
precision would typically result in a larger lower limit for the confidence interval of the estimate.
Therefore, had we used a sample size larger than 100, the estimated lower limit for the
90-percent confidence interval probably would have been a higher amount. Also, guidance
provided in the CMS Program Integrity Manual (subsection 3.10.4.3, “Determining Sample
Size”) states: “A challenge to the validity of the sample that is sometimes made is that the
particular size of the sample is too small to yield meaningful results. Such a challenge is without
merit ….”

The sampling frame for our sample was 17,992 personal care services related to direct attendant
care (procedure code T1019) for which Medicaid paid Clovis during the period October 1, 2008,
through March 31, 2009. From that list, we selected 100 services for our sample.

Tuberculosis Testing

Clovis Comments

Clovis provided the following points regarding TB testing:

     •   Clovis stated that it had submitted documentation supporting negative TB test results for
         some of the sample items in the “Tuberculosis Testing” section of the report (page 1,
         paragraph 2).

     •   Clovis stated that, since the Office of Inspector General audit, it has tested sampled
         attendants it still employs and that these TB tests were negative (page 4, paragraph 2).

     •   Clovis stated that some of its attendants were not required to have a TB test because they
         were hired before the effective date of the regulation in 2004 and that the requirements in
         the regulations were not retroactive (page 8, paragraph 1).

12
   See Puerto Rico Department of Health, DAB No. 2385 (2011) (DAB upholding disallowance of claims based on
statistical sampling and statistical methodology that mirror those used in this audit).




                                                     9
   •   Clovis stated that it believed the TB testing requirement had been repealed because of a
       letter it received from the New Mexico Department of Health, which stated that “[a]s of
       July 30, 2004, TB testing is no longer a requirement for employment in health facilities,
       schools and day care centers” (pages 8-9, section f).

Office of Inspector General Response

Our responses to Clovis’ statements regarding TB testing are as follows:

   •   The negative TB test results that Clovis provided addressed some of the deficiencies in
       the report. We reduced the deficiencies noted in the report accordingly.

   •   We did not accept Clovis’ assertion that negative TB test results obtained subsequent to
       this audit for attendants still employed complied with NMAC section 8.315.4.11A(37).
       Accordingly, we counted a sample item as deficient if Clovis could not provide medical
       documentation that the attendant tested negative for TB from a TB skin test or chest x-ray
       prior to the date of service.

   •   We confirmed with the State agency that attendants hired before the effective date of the
       regulation in 2004 and without a TB test should not be included in our report. We
       revised the report accordingly.

   •   We forwarded the letter mentioned in Clovis’ comments to the State agency, which
       responded that the letter did not apply to personal care services and that TB testing was
       still required.

Cardiopulmonary Resuscitation and First Aid Certifications

Clovis Comments

Clovis stated that (1) it provided documentation of certifications effective for the dates of service
for one claim (page 2, paragraph beginning on page 1) and (2) for two claims, the attendant
became certified within the first 3 months of employment, which was in accordance with the
regulation (pages 9 to 10, section g).

Office of Inspector General Response

The documentation Clovis provided for the three claims cited above met the requirement to
obtain either (1) valid certifications for the dates of service or (2) certifications within 3 months
of the attendant’s hire date. We reduced the deficiencies noted in the report accordingly.

Supervisory Visits

Clovis Comments

Clovis’s comments discussed three claims related to supervisory visits. Specifically:


                                                  10
       •   Clovis stated that one recipient was visited 8 of 9 months and that two unsuccessful
           attempts were made for the month of the claimed date of service. Clovis said that
           supervisory visits were difficult because of its largely rural service area (page 6,
           paragraph 3).

       •   Clovis stated that it provided a mileage log entry as documentation of an attempted
           supervisory visit during the month of the date or service (page 10, section h).

       •   Clovis stated that services for the recipient ceased in November 2008 and resumed on
           January 21, 2009. 13 Although the supervisory visit did not occur in January 2009, it did
           occur within 30 days of services resuming and thus met the requirement for a monthly
           supervisory visit (page 10, section h).

Office of Inspector General Response

Our responses to the three claims are as follows:

       •   NMAC section 8.315.4.11A(31) requires attendant supervisors to meet with recipients
           and/or their personal representatives in the recipients’ homes at least once a month.
           Documentation of unsuccessful attempts at supervisory visits does not meet the
           supervisory visitation requirements.

       •   Because Clovis provided with its response a supervisory visit document that was
           completed for the month of the date of service, we removed one deficiency from the
           report.

       •   Because the services restarted in the month of the date of service and the supervisory visit
           was completed within 30 days of services restarting, we removed one deficiency from the
           report.

Unsupported Units Claimed

Clovis Comments

Clovis stated that it had provided documentation for the claims listed in the “Unsupported Units
Claimed” section of the report.

Office of Inspector General Response

Clovis provided supporting documentation for one claim, and we reduced the deficiencies noted
in the report accordingly. For the other claim, we maintain that our finding is correct because the
hours claimed exceeded the weekly limit on the recipient’s PCSP.



13
     Office of Inspector General Note: The date of service for the claim was January 31, 2009.


                                                          11
Physician Authorization

Clovis Comments

Clovis stated that it had provided documentation for the claim listed in the “Physician
Authorization” section of the report (page 2, paragraph 1).

Office of Inspector General Response

The physician authorization documentation provided by Clovis for this claim was not for the
appropriate PCSP year. Specifically, the PCSP for this claim was for the 1-year period
August 17, 2007, to August 16, 2008, which was extended through October 18, 2008. Clovis
provided physician authorizations dated June 27, 2006, and June 11, 2008. Neither of these
authorizations was for the PCSP period that began August 17, 2007.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

State Agency Comments

In its written comments on our draft report, the State agency disagreed that our findings support
the recommended refund amount.

The State agency said that five of the six categories of deficiencies (i.e., tuberculosis testing,
supervisory visits, CPR and first aid certifications, physician authorization, and prior approval of
legal guardian) involved no demonstrated overpayments and that the deficiencies did not justify
withholding Federal funds. Rather, the findings revealed that a few files were missing a
document necessary to satisfy a particular requirement for otherwise eligible services. The State
agency also said that the documentation requirements in question for four of the six categories
(i.e., tuberculosis testing, supervisory visits, CPR and first aid certifications, and prior approval
of legal guardian) are not Federal requirements; they are State requirements, which do not
require recovery of payments.

The State agency agreed that although one category (i.e., unsupported attendant service units)
supports the conclusion that a single overpayment was made, this deficiency does not support
extrapolating the overpayment to all claims submitted during the 5-month review period. The
State agency added that this finding is too isolated, and is clearly an aberration from Clovis’s
normal practices. The State agency said that the overpayment was less than 0.08 percent of all
claims reviewed in the audit, far less than the tolerance limits established in certain Federal
programs. 14 The State agency added that in these programs, standard Federal policy in such
circumstances is to seek recovery only for the overpayments identified and not to extrapolate the
results.


14
  The State agency cited 42 CFR § 431.865 (which establishes a 3-percent tolerance limit for eligibility errors in the
Medicaid Eligibility Quality Control Program) and 45 CFR § 205.42 (1980) (an outdated regulation that established
a 4-percent tolerance limit for payment errors in the Aid to Families with Dependent Children program).


                                                         12
The State agency’s comments are included in their entirety as Appendix E.

Office of Inspector General Response

The deficiencies cited in the report, including tuberculosis testing, supervisory visits, CPR and
first aid certifications, physician authorization, and missing prior approval of legal guardianship,
are based on significant service-related requirements. Taken as a whole, these deficiencies are
too numerous to be dismissed as just a few missing files, particularly when the deficiencies in
question are related to quality of care.

We disagree that the documentation requirements in question for three of the six categories the
State agency mentioned above were not Federal requirements. To provide a valid and payable
service, personal care services must meet Federal requirements in section 1905(a)(24)(B) of the
Act and implementing regulations at 42 CFR § 440.167, which require personal care services to
be provided by a qualified individual. To be qualified in New Mexico, an attendant must meet
the NMAC requirements related to the attendant qualifications discussed above. Therefore, an
attendant who does not meet the NMAC attendant qualification requirements cannot provide
valid personal care services as defined by Federal statutes and regulations. We based other
determinations of deficiencies on regulatory requirements that are integral to the definition of
personal care services and that must be met for the services to be payable as medical assistance.

We disagree with the State agency regarding the missing documentation of supervisory visits.
The State requires that personal care services agencies be contracted to provide the services
listed under NMAC 8.315.4.11. This regulation is a key provision governing how the State
provides personal care services under its State plan. The regulation contains a broad array of
requirements that specifically control the delivery of the personal care services benefit;
supervisory visits are one of those requirements. Without evidence of the required supervisory
visits, Clovis did not satisfy the terms of its contract. Thus, we have retained the deficiencies for
missing documentation of supervisory visits.

The methodology we used to select the sample and the methodology we used to evaluate the
results of that sample have resulted in an unbiased extrapolation (estimate) of Clovis’s personal
care services. As stated in New York State Department of Social Services, DAB No. 1358
(1992), “… sampling (and extrapolation from a sample) done in accordance with scientifically
accepted rules and conventions has a high degree of probability of being close to the finding
which would have resulted from individual consideration of numerous cost items and, indeed,
may be even more accurate, since clerical and other errors can reduce the accuracy of a 100%
review.”

As we discussed above in our response to Clovis under the section entitled “Sampling
Methodology” (page 8), the Clovis sample was selected according to principles of probability.
In addition, the use of sampling and extrapolation in audits of Federal health programs has long
been approved by courts.

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services programs,



                                                 13
operations, grantees, and contractors. Therefore, the payment error tolerance limits that the State
agency cited for the Medicaid Eligibility Quality Control program and the Aid to Families with
Dependent Children program do not apply to our audits.

The State agency did not provide any additional information that would lead us to change our
findings or recommendations.

                                       OTHER MATTER

MEAL PREPARATION AND HOUSEKEEPING SERVICES PAID FOR RECIPIENTS
LIVING WITH ATTENDANTS

In reviewing supporting documentation for 25 of the 100 sampled items, we found that $2,404
was charged for time that the attendants billed for meal preparation and housekeeping services
even though the attendants and recipients lived in the same home. The State agency paid a
standard rate for each unit of time charged for attendant care regardless of whether the attendant
and recipient lived in the same home. During the scope of this audit, there were no Federal or
State regulations addressing payment for services provided by an attendant who lives with the
recipient.

The State has since amended its regulations (NMAC sections 8.315.4.16 and 17) to exclude
services covered under the New Mexico personal care services program that are a normal
division of household chores provided by a personal care attendant who resides with the
beneficiary.




                                                14
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of personal care services claim lines submitted by Clovis Homecare,
Inc. (Clovis), for Federal Medicaid reimbursement by New Mexico for the 6-month period
October 1, 2008, through March 31, 2009. A claim line represented unit(s) of service paid
(0.25 hour equaled one unit of service).

SAMPLING FRAME

The sampling frame consisted of 17,992 personal care services claim lines (totaling $4,711,258)
for the period October 1, 2008, through March 31, 2009.

SAMPLE UNIT

The sample unit was a personal care services claim line for which New Mexico reimbursed
Clovis.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claim lines.

SOURCE OF RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 17,992. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate the
total value of overpayments.
             APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                  Sample Results

                                                                   Value of
           Value of                  Value of         No. of      Claim Lines
Sampling    Frame                     Sample       Claim Lines       With
 Frame     (Federal     Sample       (Federal         With        Deficiencies
  Size      Share)       Size         Share)       Deficiencies (Federal Share)

 17,992    $3,638,976     100            $20,086        24            $3,641


                            Estimated Value Of Overpayments
                  (Limits Calculated for a 90-Percent Confidence Interval)
                                      (Federal Share)

                        Point estimate             $655,042
                        Lower limit                 404,817
                        Upper limit                 905,267
                    APPENDIX C: REASONS FOR DEFICIENT CLAIM LINES

    1   Missing evidence of tuberculosis testing
    2   Missing evidence of cardiopulmonary resuscitation
    3   Missing evidence of supervisory visits
    4   Unsupported units claimed
    5   Missing evidence of physician authorization
    6   Missing evidence of State agency prior approval for personal care services provided by
        legal guardian or attorney-in-fact



                                                              No. of
     No.        1      2      3      4      5      6        Deficiencies         Sample Item No. 1
      1         X                                                 1                     2
      2                       X                                   1                     4
      3         X                                                 1                    12
      4         X                                                 1                    15
      5         X                                                 1                    23
      6         X             X                                   2                    26
      7         X                                                 1                    30
      8         X                                                 1                    32
      9         X                                                 1                    36
     10         X                                                 1                    41
     11                       X                                   1                    42
     12         X                                                 1                    46
     13         X                                                 1                    48
     14                              X      X                     2                    54
     15         X                                                 1                    55
     16         X                                                 1                    71
     17         X                                                 1                    74
     18         X             X                                   2                    78
     19         X                                                 1                    83
     20         X                                                 1                    88
     21         X                                                 1                    90
     22         X                                                 1                    94
     23                X                           X              2                    95
     24        X                                                  1                    99
    Total      20      1      4      1      1      1             28

Total deficiencies for “Attendant Qualifications” (columns 1 and 2) is 21.
Total for “Other Deficiencies” (columns 3 through 6) is 7.


1
    We include the “Sample Item No.” column as a cross-reference to the specific sample item.
                                                                                                                          Page 1 of 12


                           APPENDIX D: CLOVIS COMMENTS



                            BANNERMAN & JOHNSON,P.A.
     ______ _ __ _ _~Attorneys & Counselors at Law._______ _ _ _ __
     REBECCA L AVITIA                                                                                 DEBORA HE. MANN·
     JOHN A. BANNERMAN                                                                                RlKKJ   L. QUINTANA·
     MARGARET A. GRAHAM                                                                               GORDON RESEll·
     nmMAS P. GULUW·                                                                                  DONALD C. TRIGG·
     DAVID It JOHNSON
                                                                                                      ·SPECIAl. COUNSEL


                                                    November 8, 2010
                                                                                                     File No. 1833-001

VIA EMAIL & OVERNIGHT DELIVERY
Ms. Patricia Wheeler
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, Texas 75242
Email: Patricia.Wheeler@oig.hhs.gov

           Re: Clovis Homecare, Inc. 

               OIG Report Number: A-06-09-00117 


Dear Ms. Wheeler,

       We represent Clovis Homecare, Inc. ("Clovis''}- We write in response to your letter to Mr.
Randie Hatley dated August 26, 2010, enclosing the ns. Department of Health & Human Services,
Office of Inspector General's (the "OIG") Draft Report entitled Review of New Mexico Medicaid
Personal Care Services Provided by Clovis Homecare, Inc. (the "Draft Report"). Clovis
appreciates the opportunity to submit this response in' order to raise several issues regarding the
Draft Report, its conclusions and recommendations. In light of the analysis set forth below, we
believe Clovis only has 27 deficiencies and we respectfully request that the OIG revise its
conclusions and recommendations accordingly.

       Under separate cover, Clovis submitted several of the documents listed as "missing" in the
Draft Report'. For sample item numbers 19, 20, 34, 37, 42, 57, 83, 90,2 91, 963 and 97, Clovis

I   The additional documents described in this paragraph were all submitted under separate cover dated November 5,
20 10. To the extent those documents are subject to the Freedom of In formation Act ("FOrA"), they are protected from
release under FOrA exemptions (b)(4), (b)(6) and (b)(7).

2 Sample item numbers 83 and 90 relate to the same attendant, and therefore the same test. For sample numbers 57 and
83/90, the tests in Clovis' file show that the Portales Health Office and Quay County Department of Health,
respectively, did not "certify" the tests until several years after the negative tests were performed. We strongly dispute
that this discrepancy should in any way invalidate the negative tests because, as both tests indicate, their results are, in
fact, certified by the appropriate health officials.

J For sample item numbers 20 and 96, the Annual Known Positive TB Reactor Questionnaires ha ve been submitted with
the last x-ray readings and other documentation indicated therein. Both Questionnaires are certified by the N.M.
Department of Health and both indicate that the attendants had prior positive TB skin tests with subsequent negative x­
ray readings. For both attendants, the negative x-ray readings pre-dated the dates of service at issue in the audit, as well
as the attendants' dates of hire.

                          220 1 SAN   PEDRO NE, BUILDING2. SUITE 207 . ALBUQUERQUE, NM 87110
                                              (505)837- 1900 .     FAX (505) 837- 1800 

                                                     Boma il' DtIl@NMCourlSel,c:om 

                                                         wW".NMCounsel ,com 

                                                                                                                 Page 2 of12




BANNERMAN & JOflNSON,          P.A.
Ms. Patricia Wheeler
November 8, 20 10
Page 2


submitted the attendant tuberculosis ("TB") tests that pre-date the dates of service at issue. For
sample item number 32, Clovis submitted the attendant's cardiopulmonary resuscitation and first
aid ("CPR/FA") certifications effective on the date of service. For sample item numbers 54 and 77,
Clovis submitted the timecards for the dates of service at issue. This clears the only two
deficiencies identified in the Draft Report related to units claimed. For sample item number 54,
Clovis also submitted the physician authorization applicable to the dates of service at issue. This
likewise clears the only deficiency identified in the Draft Report related to physician authorization.
In total, then, Clovis has located and provided under separate cover the necessary documents to
clear 15 of the alleged deficiencies.

            I.       Concerns Regarding the Draft Report and Recommendations

        Certain of the findings and recommendations in the Draft Report do not appear to be
consistent with applicable law and/or reasonable interpretations of applicable law under the facts at
issue here, as described in detail below. We also have concerns regarding certain aspects of the
methodology used to perfoml the review.

                     a. Conditions of Payment v. Conditions of Participation

       The Draft Report alleges that Clovis was deficient concerning several personal care option
("PCO") regulations and recommends recoupment of Medicaid dollars. Recoupment is not an
appropriate remedy for the alleged deficiencies because compliance with the PCO regulations is a
condition of participation and not a condition of payment. Conditions of participation are those
requirements providers must meet in order to participate in the Medicaid program. Courts have
frequently held, in the False Claims Act context, that a provider is not liable for repayment or
recoupment for failures to comply with government regulations "unless, as a result of such acts, the
provider knowingly asked the govemment to pay amounts it did not owe.,,4

       For example, the Kansas District Court, which, like New Mexico, is in the Tenth Circuit,
observed:

           To allow FCA suits to proceed where government payment of Medicare claims is
           not conditioned on perfect regulatory compliance-and where HHS may choose to
           waive administrative remedies, or impose a less drastic sanction than full denial
           of payment-WOUld improperly permit qui tam plaintiffs to supplant the regulatory
           discretion granted to HHS under the Social Security Act, essentially turning a
           discretionary denial of payment remedy into a mandatory penalty for failure to
           meet Medicare requirements. 5




4   E.g., U.S. ex rei. Williard v. Humana Health Plan, 336 F.3d 375, 38 1-85 (5th Cir. 2003).

5 U.S. ex reI. Conner v. Salina Reg'! Health elr., Inc., 459 F.Supp.2d 108 1, 1087 (D. Kan. 2006), affd 543 FJd 12 11
(10th Cir. 2008).
                                                                                                                      Page 3 of12




BANNERMAN        & JOHNSON, P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 3

       In affirming the Kansas District Court, the Tenth Circuit explained that "[elven if, as the
result of the survey, a provider appears noncompliant, the government does not immediately
suspend Medicare enrollment or billing privileges. Rather, the relevant regulations permit the
provider to create a plan of con'ection, and allow a reasonable period of time-usually 60 days-to
address any deficiencies.,,6 The Tenth Circuit also noted that there are no regulations or case law
"indicating that the government normally seeks retroactive recovery of Medicare payments for
services actually performed on the basis that the noncompliance rendered them fraudulent.'"

        The same is true here. Clovis did not seek payment from the New Mexico Human Services
Department ("HSD") for types of services that Medicaid does not cover and all services were
provided to Medicaid beneficiaries as claimed. Moreover, in almost every case, Clovis fully and
completely adhered to the provisions of HSD's Medical Assistance Division ("MAD") provider
participation agreement and all applicable statutes, regulations, billing instructions and executive
orders. Further, as discussed below, Clovis has conducted an internal review and created a plan of
correction to address the deficiencies noted by the OIG.

        Reviewing the New Mexico regulations as a whole, we could not find support for the
position that payment for services is conditioned upon strict compliance with every aspect of the
PCO regulations at NMAC 8.31 SA.llA (2004)8. The only discussion of recoupment is contained at
NMAC 8.3 1SA.ll(A)(14) (2004). This subsection states that PCO agencies must pass random and
targeted audits conducted by HSD or its audit agent to ensure that the agencies are billing
appropriately for services rendered. The regulation also expressly states that "the department or its
designee will seek recoupment of funds from agencies when audits show inappropriate billing for
services.'" Given the documents located and submitted under separate cover on November S, 2010,
this basis for recoupment is no longer triggered by the remaining alleged deficiencies outlined in the
Draft Report. Indeed, historically, HSD has used corrective action plans, sanctions or a
combination of both - but not repayment - to address providers' deficiencies in compliance with
conditions ofparticipation. 'o We understand that this remains HSD policy.




6   u.s. ex rei. Conner v. Salina Reg '/ Health Ctr., Inc., 543 F.3d 1211 , 1220~2 1 (10th Cir. 2008).
7 /d.

g   The audit period pre-dated the promulgation of the revised       pca   regulations late this year. As a result, the PCD
regulations cited here are those promulgated in 2004.

'NMAC 8.3 15.4. 11 (A)(14) (2004).

10 See NMAC 8.35 1.2 (2003) (Sanctions and Remedies).      The Draft Report makes no suggestion and presents no
evidence that any of the alleged deficiencies are due to fraudulent conduct by Clovis. Therefore, even under the
sanctions and remedies available to HSD for violations of conditions of participation, the penalties to which Clovis
would be subject are limited.
                                                                                                                        Page 4 of12




BANNERMAN      & JOHNSON, P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 4

                   b. Substantial Compliance

        At all times during the audit period, Clovis was in substantial compliance with the PCO
regulations. For Medicaid survey and certification purposes, "substantial compliance means a level
of compliance with the requirements of participation such that any identified deficiencies pose no
greater risk to resident health or safety than the potential for causing minimal harm."" As the
Tenth Circuit has observed, "although the government considers substantial compliance a condition
of ongoing Medicare participation, it does not require gerfect compliance as an absolute condition
to receiving Medicare payments for services rendered." 2 The same is true here regarding Medicaid
participation and payments - perfect compliance is not required. Moreover, the oro has not
demonstrated that strict adherence to every aspect of the regulation at issue guarantees better care
for clients." Importantly, at no time was the health or safety of any client at risk nor was care
rendered in such a manner that would cause harm to Clovis' clients.

         Several examples illustrate this point. First, as to potential TB exposure, Clovis' records
demonstrate that all attendants answered an annual TB questionnaire, reviewed by a nurse, to
determine whether any of the attendants showed any sign of TB. Thus, while Clovis did not have a
record of negative TB tests for certain attendants, Clovis nevertheless closely monitored its
attendants every year as to any potential signs of TB. Clovis' constant monitoring, which is
documented, ensured the continuing safety of its clients, likely more effectively than a test only
upon initial hire. Moreover, since the OIG 's audit, Clovis has tested the attendants identified in the
audit that it still employs who were actually missing TB testing. All of the attendants' TB tests
were negative. 14 Similarly, as to sample item number 95, the lone deficiency regarding approval of
attendants serving as clients' legal guardians, note that the New Mexico Aging and Long-Term
Services Department recently approved of the attendant simultaneously serving as the client's
guardian and attendant. This approval, while belated, demonstrates that the client was not put in
harm's way by the arrangement.



" 42 C.P.R. § 488.30 1.

12 Us. ex rei. Conner, 543 F.3d at 122 1 (emphasis in original). Case law in New Mexico is consistent with the position
of the federal court. For example in Gutierrez v. City of Albuquerque, 631 P.2d 304, 307 (N.M. 1981), the Supreme
Court of New Mexico stated, "[sJubstantial compliance has occurred when the statute has been sufficiently followed so
as to carry out the intent for which it was adopted and serve the purpose of the statute." And, in Lane Y. Lane, 9 19 P.2d
290,295 (N.M. Ct. App. 1996), the New Mex.ico Court of Appeals stated, "[t]he legislature can . .. expect that when
one of its orders (i.e, a law) is to be carried out, those who have that duty (i.e., the courts) will discern its purpose and
act in accordance with its essence if not necessarily its letter."

13 The New York Office of the Medicaid Inspector General ("OMIG") has reviewed the matter of substantial
compliance with regard to training in the home health arena. ]n draft guidance, the OMIG instructed that disallowances
should not be taken "if the provider has decent controls in place and, in a couple of situations, the aide was short a few
hours - especially when they have documented some reasonable explanation ." Available at http ://www.hca~
nys.orgidocumentsICflliAOMIGProtocols.pdf. We believe the DIG should take a similar position here.

14111ese negative test results were submitted under separate cover.
                                                                                                                        Page 50f12




BANNERMAN          & JOHNSON, P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 5

         Additionally, the OIG failed to apply a reasonableness standard to compliance with the
regulations. New Mexico's Medicaid regulations are comprehensive and are intended to provide
policies related to various aspects of Medicaid program operations, such as those regarding provider
eligibility, covered and non-covered services, utilization review, and provider reimbursement. 15
The OIG based its audit on a review of isolated portions of the regulations and failed to take into
accOlmt the language and intent of the regulations as a whole. Furthermore, even using the numbers
initially identified as deficiencies by the OIG, the Draft Report wholly fails to acknowledge that
Clovis had a 94 percent or better compliance rate for nearly everyone of the six categories the OIG
reviewed. 16 Moreover, as demonstrated herein, the number of deficiencies identified in the Draft
Report was significantly overstated and the actual compliance rate is even higher.

        It is important to note that many of the technical deficiencies described in the Draft Report
relate to requirements that HSD does not impose on personal care attendants in tbe virtually
identical Consumer-Directed PCO program. It does not seem rational to assert that Clovis' claims
should be denied for a regulatory deficiency when identical services provided in the sister
Consumer-Directed PCO program wou ld be fully reimbuTsable,t7 Certainly Clovis' clients would
have been at a greater risk of harm by not receiving services at all. We believe that Clovis was in
substantial compliance with the spirit and intent of applicable New Mexico law.

                      c. Barriers to Accessing Health Care Providers and Services

       The areas where Clovis' offices are located and where Clovis' patients reside are sorely
underserved by health professionals. Clovis' four offices are located in Clovis, Roswell, Ruidoso,
and Tucumcari, New Mexico, each of which is designated by the Health Resources and Services
Administration ("HRSA") as primary care Health Professional Shortage Areas ("HPSAs") and
Medically Underserved Areas ("MUAs"). The eight counties Clovis serves - Chaves County, Curry
County, De Baca County, Guadalupe County, Lincoln County, Otero County, Quay County, and
Roosevelt County - are also designated as primary care HPSAs. Seven of these - Chaves, Curry,
Guadalupe, Lincoln, Otero, Quay, and Roosevelt Counties - are designated as MUAs. De Baca
County is designated as baving a Medical Underserved PopUlation ("MUP") at the request of New
Mexico's Governor based on documented unusual local conditions and barriers to accessing
personal health services.      I'

IS   NMAC 8.315.4.6 (2004).

16   See infra .

OJ   See NMCA 8.315.4.10(B)( 11) (2004).

18   The status of these areas as HPSAs, MUAs, or MUPs was confirmed through a search of HRSA' s databases, which
can be found at http://bhpr.hrsa.gov/shortage/. A HPSA is an area in an urban or rural area that the Secretary of the U.S.
Department of Health & Human Services determines: (I) has a health manpower shortage and that is not reasonably
accessible, (2) has a population group that the Secretary determines has such a shortage, or (3) has a public or nonprofit
private medical facility or other public facility that the Secretary determines has such a shortage. A primary care HPSA
means that there is a shortage of doctors of medicine and osteopathy providing direct patient care who practice
principally in one of the four primary care specialties -- general or family practice, general internal medicine, pediatrics,
                                                                                                                     Page 60f12




BANNERMAN & JOHNSON,        P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 6

        As a result of working in these officially designated underserved areas, it is particularly
difficult for Clovis' attendants to access facilities that offer TB testing. Also, attendants frequently
are family members of Clovis' clients and provide many services outside of the personal care arena
to their family member, which generally require them to stay home with their family member.
Under the circumstances, these attendants' responsibilities make it extremely difficult for them to
obtain TB tests because they often have to travel lengthy distances over rural roads at least twice in
connection with each TB test.

         Attendants similarly have difficulty traveling to Clovis' offices to receive CPR/FA
certification training. Such training is largely unavailable in the attendants' communities and
receiving training at a Clovis office is the only option. Attendants in Clovis' more isolated service
areas travel an average of 74 miles one way to reach a Clovis office to receive training. These
individuals often have unreliable transportation, lack money to pay for gasoline, and, as discussed in
the paragraph above, have difficulties traveling because of obligations to Clovis clients. Yet, Clovis
has a 96 percent compliance rate for CPRlFA certification training.

        Similar difficulties plague the monthly supervisory visits. With a largely rural client-base,
Clovis supervisors spend significant time traveling long-distances to visit with clients. In fact, these
trips often occur more than once per month when clients are not at home during the initial visit.
Yet, again, despite these difficulties, Clovis has at least a 94 percent compliance rate for supervisory
visits. Moreover, when the files are viewed as a whole, it is clear that even in the limited instances
when a supervisory visit was missed, it was the rare exception. For instance, when looking at a nine
month window of time for sample number 78, it becomes clear that Clovis successfully visited the
client eight out of nine months and, for the single month without a visit, Clovis made at least two
unsuccessful attempts.

       We believe that the HPSA, MUA, and MUP designations and the fact that Clovis operates
and serves clients who reside in officially designated underserved areas are critical factors in any
assessment of compliance with the regulations, particularly when applying a reasonableness
standard to the alleged deficiencies identified.

                  d. Sampling and Extrapolation

       The Draft Report relies on a sampling of 100 out of 17,992 claim lines, and then makes a
recommendation for recoupment using an extrapolation ratio of 1 to 179. Historically, HSD does
not extrapolate from its audit findings. To our knowledge, this is equally true of the other New
Mexico Departments. Even if extrapolation was permissible and supported by New Mexico law,



and obstetrics and gynecology. 42 U.S.C. § 254e. An MUA is an urban or rural area or population that: (I) is a HPSA,
(2) is eligible to be served by a migrant health center, a community health center, is a grantee relating to homeless
individuals, or a grantee relating to residents ofpuhlic housing, (3) has a shortage of personal health services, or (4) is
designated by the Governor as a shortage area or medically underserved community. 42 U.S.C. §§ 254c-14 & 295p.
An MUP is the population of an urban or rural area designated as an area with a shortage of personal health services or a
population group designated as having a shortage of such services. 42 U.S.C. § 254b.
                                                                                                                     Page 70f12




BANNERMAN & JOHNSON, P.A.
Ms, Patricia Wheeler
November 8, 2010
Page 7

Clovis disputes the statistical validity of both the sample size and the extrapolation in the Draft
Report.

        The OIG' s statistical analysis suffers from prima facie errors that render it incapable of
supporting the Draft Report' s reconunendations. The OIG appears to have chosen a sample of 100
claims, not based on any statistical analysis of the variance or heteroskedasticity of the pool (which
is the ordinary procedure for statistical sampling), but instead appears to have chosen 100 sample
claims based on the assumption that this would be sufficient (perhaps, based on the simplicity of
using a round number).l ' This is contrary to well-accepted statistical methodology as well as the
guidance provided in the CMS Program Integrity Manual 20

        The OIG's 0.556 percent sample rate is insufficient to support its conclusions. The records
for a company with approximately 1,114 attendants, 735 clients,'l and 17,992 claims during the
sample period would be expected to naturally exhibit variance. Indeed, the results demonstrate the
intrinsic variability of the sample and the need for additional sampling. Here, the high variable and
small sample size yields unreliable results when extrapolated to the universe of claims?2

                   e. Prospective v. Retrospective Application of Regulations

         The Draft Report applies certain PCO regulation requirements retroactively, resulting in at
least five deficiencies against Clovis. This retroactive application is contrary to both New Mexico
law and the applicable PCO Regulations. The sampling period underlying tile Draft Report was
from October 1,2008, through March 31 , 2009. The PCO Regulations applicable to the services
rendered during that time were the 2004 PCO Regulations promulgated on February I, 2004 (the
"2004 Regulations")." The PCO Regulations applicable to the hiring requirements for attendants,
on the other hand, depend on the date each attendant was hired. Because the 2004 Regulations did




19 For example, see, "Review of Personal Care Services Claimed by the Center for Living and Working, Inc.," (A-OI­
06-00011), sample size= 100, universe= 4,466 payment years; "Audit of Medicaid Costs Claimed for Personal Care
Services by the Minnesota Department of Human Services, October 1, 1998 Through September 30, 1999," (A-05-01­
00044), sample size= 100, universe= 211 ,000 claims.

20   CMS Medicare Program Integrity Manual, Ch. 3, § 3. to.

21 The number of attendants provided is for all of 2009; the number of clients provided is as of March 3 1, 2009, i.e. the
end of the audit period.

22 Jtis unclear from the Draft Report whether the OIG used RAT-STATS for selecting its statistical sample. The Draft
Report states only that "Office of Inspector General, Office of Audit Services statistical software" was used "to generate
random numbers" and " to estimate the total value of overpayments." We believe we are entitled to a fair opportunity to
examine the software. If the OIG is referring to a program other than RAT-STATS, we should have the opportunity to
review and evaluate the program to detennine whether it can produce a statistically valid sample.

23   NMAC 8.3 15.4 (2004).
                                                                                                                  Page 80f12




BANNERMAN & JOHNSON,           P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 8

not become effective until July I, 2004,24 the initial hiring requirements for attendants hired before
that date would fall under the original PCO Regulations (the "Original Regulations")."

        Of the samples identified in the Draft Report that were allegedly missing evidence of
tuberculosis testing, the attendants for sample item numbers 20, 49, 52, 58 and 96 were all hired
before the effective date of the 2004 Regulations and thus were subject to the Original Regulations.
This is important because the Original Regulations did not require tuberculosis testing upon initial
employment. 26 Further, under New Mexico law, the 2004 Regulations' tuberculosis testing
requirement was not retroactive. "New Mexico law .fresumes that statutes and rules apply
prospectively absent a clear intention to the contrary.,,2 Here, there is no suggestion, clear or
otherwise, that the 2004 Regulations were to be applied retroactively. Indeed, the text of the
regulation itself counsels against retroactive application by stating that while July 1, 2004, is the
effective date, "a later date" may also be appropriate if "cited at the end of a section."" HSD's
decision to apply the 2004 Regulation requirements prospectively was especially appropriate
because many of the changes in the re~u1ation were "not [] mere changer s] in procedure, but 0
changers] affecting substantive rights.'" Accordingly five of the alleged deficiencies cited in the
Draft Report are fully in compliance with applicable law.

                    f.   Prevailing Belief as to Repeal of TB Testing Requirement

        In addition, contextual considerations should be taken into account when assessing Clovis'
compliance with the PCO Regulations. By far the largest category of deficiencies in the Draft
Report relate to "Missing Evidence of Tuberculosis Testing." According to the 010, there are 36
deficiencies relating to TB testing 30 But there is a simple explanation for many of the deficiencies
in this category: Clovis relied on a letter dated July 21, 2004, informing it that "[as] of July 30,
2004, TB testing is no longer a state mandated requirement for employment in health facilities,
schools and day care centers." This letter explained that "New Mexico has been a low incidence
state for TB since 2000, which means that there are fewer than 3.5 TB cases per 100,000
population. There has been on average a 5% per year decline in TB cases since the 1950s." Clovis
understandably believed that the repeal of the tuberculosis testing requirement applied to it because,

24   NMAC 8.3 15.4.5 (2004).

"NMAC 8.4.738 (2000).

26   See generally NMAC 8.4.738 (2000).

27   Howell v. Heim, 11 8 N .M. 500, 882 P.2d 541 (N.M. S. Ct. 1994) (citation omitted).

" NMAC 8.3 15.4.5 (2004) (underline added).

29   Wilson v. New Mexico Lumber & Timber Co., 42 N.M. 438, 81 P.2d 61,63 (1938) (quotation omitted).

3D As stated above, Clovis has located and submitted tuberculosis tests pre-dating the dates of service for sample item
numbers 19, 20, 34, 37, 42, 57, 83, 90, 91, 96 and 97; and sample item numbers 20, 49, 52, 58 and 96 are
inappropriately deemed deficient because the attendants were hired before the tuberculosis testing requirement appeared
in the PCO regulations. Accounting for these, there arc only 20 remaining tuberculosis testing deficiencies.
                                                                                                                 Page 90f12




BANNERMAN     & JOHNSON, P.A.
Ms. Patricia Wheeler
November 8, 2010
Page 9

among other things, it was sent a copy of this letter by the New Mexico Department of Health
("DOH") on July 23, 2004. In the DOH 's letter, it again referred to the "[r]epeal of state-mandated
tuberculin screening oflow-risk individuals ... ,,31

        Based on these letters, Clovis believed that the requirement for tuberculosis testing had been
repealed. To ensure its understanding of the letter was correct, Clovis contacted Joie Glenn,
Executive Director of the New Mexico Association for Home and Hospice Care. Ms. Glenn
interpreted the DOH letter differently from Clovis, and suggested that Clovis continue TB testing.
Intent on following the regulatory requirements, Clovis did as Ms. Glenn advised. Thereafter,
however, DOH informed Clovis that it would no longer offer testing of Clovis' attendants. When
Clovis inquired as to the reason for this discontinuance, DOH infonned Clovis that, per its July
2004 letter, the requirement for TB testing had been repealed, including as to PCO agencies.

        Admittedly, despite the repeal of the Department of Health regulation requiring tuberculosis
testing in health facilities and other settings in 2004, the Human Services Department's PCO
regulations continued to require testing upon initial employment of PCO attendants.                         But we
understand that Clovis was not the only entity confused by this inconsistency and misled by the
DOH's correspondence. Likely to address this problem, HSD has revised the PCO Regulations to
now require tuberculosis testing only as mandated by the DOH," and as recently as October 24,
20 I 0, issued an additional memorandum to PCO agencies clarifying the concurrent TB testing
requirements of the Center for Disease Control. Clovis' alleged deficiencies regarding tuberculosis
testing should be evaluated only in the context of the then-common understanding of applicable
legal standards and a New Mexico official's statements regarding the repeal of tuberculosis testing
requirements.

                     g. CPR/FA Certifications Within Permissible Window

        Of the four CPRIFA certification deficiencies, two of the alleged deficiencies ignore that the
attendants did, in fact, have the required certifications within the time frame set forth in the PCO
Regulations. The then-applicable 2004 PCO Regulations required that "all attendants ... must 0
completer] within the first three (3) months of employment ... cardiopulmonary resuscitation
(CPR) and first aid training ..." and thereafter the "CPR and first aid certifications must be kept
current."JJ For sample item numbers 18 and 94, the attendants obtained their CPRIFA certifications
within three months of their date of hire, as required by the 2004 PCO Regulations.34 For sample
item number 18, the attendant was hired on October 24, 2008; the dates of service were November
13 to 14,2008; and the attendant became CPRIFA certified on January 22,2009. The attendant for

31   Copies of both letters are enclosed here.

32   NMAC 8.3 15.4.11(B)(31) (2010) (replacing the requirement for tuberculosis testing upon initial employment with a
requirement that PCO agencies instead "follow[] current recommendations of the state department of health for
preventing the transmission of tuberculosis (TB) for attendants upon initial employment and as needed").

33   NMAC 8.3 15.4.11(A)(2)(c)-(d) (2004).

34   rd.
                                                                                                                 Page 10 of 12




BANN1~RMAN & JOHNSON, r,A.
Ms. Patricia Wheeler
November 8, 2010
Page 10

number 18, therefore, became CPR/FA certified 90 days after the date of hire, which is within the
three-month window mandated by the 2004 Regulations. Second, for sample item number 94, the
attendant was hired on October 14, 2008; the dates of service were December 20 to 22, 2008; and
the attendant became CPRIFA certified on January 8,2009. The attendant for number 94, therefore,
became CPRIFA certified 86 days after the date of hire, which again is within the three-month
window mandated by the 2004 Regulations. In light of these calculations, the CPRIF A certification
deficiencies alleged as to sample item numbers 18 and 94 should be stricken."

                    h. Additional Factual Considerations as to Supervisory Visits

         Certain additional factual considerations exist as to sample item numbers 21 and 87. First,
for sample item number 21 , additional review of the file indicates that at least an attempted visit
was performed in the month at issue, February 2009. This evidence consists of a mileage log entry
showing that a trip was made by a supervisor to the client's home on February 18,2009. While this
evidence is not in Clovis' typical form, i.e. a supervisory visit slip, it does indicate that at least an
attempted visit to the client's home was perfonned during the month at issue. Second, as to sample
item number 87, a supervisory visit was not performed during the month at issue because the client
was not receiving and was not approved for services for 20 days out of the month. Clovis' records
show that the client's services ceased in November 2008 and did not re-start until January 21, 2009.
It is therefore unsurprising that a supervisory visit did not occur in the remaining 10 days of January
after the services re-started. When the services did re-start, Clovis ensured that a supervisory visit
was performed within 30 days from the date that the services re-started. That is, Clovis performed a
supervisory visit on February 17, 2009, which was 27 days after the services re-started.

                    i.   Unwritten Policies v. Regulations

        Under "Other Matter[sj," the OlG disputes $2,404 associated with "25 of the 100 sampled
claims" for time spent by attendants in meal preparation and housekeeping services because the
attendant and client lived in the same horne. The OlG does not specify which 25 claims fall into
this category. As a result, Clovis is denied its opportunity to respond substantively to the allegation.
Even without knowing to which samples the OIG's complaint relates, it is still clear that the sum
identified by the OIG was appropriately paid under the then-applicable peo Regulations. As the
OlG admits in its Draft Report, "there are no Federal or State regulations addressing payment for
services provided by an attendant who lives with the recipient .. ." Jndeed, under the then­
applicable 2004 Regulations, HSD specifically outlined non-covered services but did not include
meal preparation or housekeeping services of attendants living with clients as non-covered. J6
Further highlighting the fact that during the audit period there was no such requirement, current

3S   Clovis' extensive efforts to ensure compliance with the CPR/FA certification requirements should also be noted. As
C lovis' files demonstrate, it was very active in making sure that its attendants completed the required annual training
and that their CPRiFA certifications did not lapse. For example, the file for the attendant in sample item number 95
contains several written notices and handwritten notes of verbal notices to the attendant regarding the upcoming
expiration of her certifications. The efforts documented are standard procedure at Clovis, and likely the reason for its
high compliance rate in this category.

"See NMAC 8.315 .4. 15 (2004).
                                                                                                     Page 11 of12




R ANNI(RI>IA"" & JOH NSON, I '.A.
Ms. Patricia Wheeler
November 8, 2010
Page II

draft regulations, published on October 8,2010, only now propose to prohibit the submission of
claims for lime spent by attendants in meal preparation and housekeeping services when the
attendant and client live in the same home?7 Therefore, there was nothing improper or
unreasonable in Clovis' reimbursement for these types of services.

          II.     Corrective Action Plan

        Notwithstanding Clovis' above concerns regarding a number of the Draft Report's
conclusions and its recommendations, Clovis has initiated several efforts 10 ensure thai it is in full
compliance with the peo Rcguialions. 38 First, Clovis has contacted all current attendants to ensure
that each has had a TB test or chest x-ray w ithin the last tcn years, and that testing or x-ray res ul ts
arc placed into the attendant's file. As a double-check, going forward, Clovis will also conduct a
semi-annual internal audit o f attendant med ical filcs for negati ve tubercu losis skin test results or x­
ray readings. In addition, Clovis has adopted a new policy req ui ring all attt:ndants to have TB tests
perfonned and results read within one week of hire, and individuals arc notified of this requirement
during the application process. An altendant's file will be deemed inoomplete unli l the test results
have been completed, and Clovis' Human Resource Director bas been cbarged with ensuring that all
new employees have completed th e testing.

        Second, Clovis is conducting an internal audit of attendant files to ensure tbat the attendants
have current certifications. For future attendants, Clovis has charged its Human Resources Di rector
with Cllsuring that all new hires have completed their certifications by, among other things, ensuri ng
that they are not placed with a client until they have been scheduled for a CPRIFA course. Clovis'
Hu man Resources Director will also review an intcmal certification trackin g database monthly to
ensure that attendants' certifications do not lapse. Clovis will also continue its practice of annuall y
rev iewing files to confinn attendants' certifications and notifying attendants, by phone and in
writing, if their certi fi cations are due to expire wi thin the year.

       Finall y, C lovis recently enacted a three-point Corrective Action Plan to ensure a face-to-face
supervisory visit is perfonne<l for each c lient without exception. These Corrective Action Plans
demonstrate Clovis' commitment to continue its efforts to comply w ith the PCO Regulations.

          Ill.    Conclusion

       For thc reasons sct forth above, Clovis stro ngly dis putes a number of the findings and
recommendations contained in the Draft Report and believes the OIG should revise its report
accordingly. If you have any fmther questions or would likc any further documentation regarding
the Draft Report, plcase do not hesitate to contact us.




31 NMAC 8.315.4.17(C) (pro{XJ$€d Oct. 8, 2010).

31 Copies orlhe O:>rrective Action Plans enacted as a part of these efforts an: enclosed.
                                                Page 12 of12




BANNERMAN & JOHNSON, P .A.
Ms. Patricia Wheeler
November 8, 2010
Page 12

                             Sincerely,




                             - and-



                             ARENT FOX LLP



                             Linda A. Baumann

Enclosures as noted.
cc:     Randie Hatley
                                                                                                   Page 1 of 19


APPENDIX E: NEW MEXICO HUMAN SERVICES DEPARTMENT COMMENTS




               New Mexico Human Services De                                               rtment
                                                                              Medical Assistance Division
                                                                                           PO Box 2348
   Susana Martinez, Governor
                                                                               Santa Fe, NM 87504-2348
   Sidonie Squier, Secretary
                                                              Phone: (505) 827-3103; Fa x: (505) 827-3185

        February 13, 2012

       Ms. Patricia Wheeler 

       Regional Inspector General for Audit Services 

       Department of Health and Human Services 

       Office of the Inspector General 

       Office of Audit Services, Region VI 

       1100 Commerce Street, Room 632 

       Dallas, TX, 75242 


       Re: 	     New Mexico Response - Medicaid Personal Care Services Provided by Clovis
                 Homeeare, Inc" A-06-09-00117

       Dear Ms. Wheeler:

       Enclosed are the New Mexico Human Services Department Medical Assistance Division 's
       comments on the Department of Health and Human Services Office oflnspector General' s draft
       audit report A-06-09-00 117 titled "Review of New Mexico Medicaid Personal Care Services
       Provided by Clovis Homecare, Inc."

       Thank you for the opportunity to comment. If you should have any questions, please contact
       Cathy Sisneros, Chief of the CoLTS Bureau at (505) 827-3178 or bye-mail at
       Cathy.Sisneros@state.nm.us.

       Sincerely,




   ~g'Direcb
       Medical Assistance Division
       New Mexico Human Services Department
       Enclosure

       Cc: 	     Sidorue Squier, HSD Secretary 

                 Brent Earnest, HSD Deputy Secretary 

                 Paula McGee, HSDIMAD Healthcare Operations Manager 



       DC: 4266941 ·2
                                                                                                                                                                    Page 2 of19




                                                                      New Mexico Human Services Department (HSD)
                                                                                                 Medical Assistance Divis ion (MAD)



               New Mexico Human Services Department Medical Assistance Division
               Comments on the Department of Health and Human Services Office of Inspector
               General Draft Audit Report A-06-09-00117 on Medicaid Personal Care Services, Clovis
               Homecare, Inc.



Table of Contents
A.        Introduction .................................................................................                   .. ........................................ 1 


B.        Summary of Response ................................. ................................ .                    . .............................................. 1 


C.        Background ................................................... .... ..... .. .............................................................................2 


D.        Alleged Clovis Deficiencies .................................................................... .......... ........... ........................... 3 


     1.       Missing Tuberculosis Testing Documentation ....................................................... .. ........................ 3 


     2.       Missing Documentation of Supervisory Visits .......................................................... ....................... .4 


     3.       Missing CPR or First Aid Certification ................................................................................................ 5 


     4.       Unsupported Atte ndant Service Units ............. ............ .................................................................... 6 


     5.       Missing PhysiCian Authorization ............ .......... ....... ................................... ....................................... 6 


     6.       Missing Prior Approval of Legal Guardian or Attorney-in-Fact Services .......... ................................. 6 


     7.      Other PCO Matters ............... ...... ....... ............... ................................................................................ 7 


E.        State Policy Changes and Compliance Measures ..................................................................................7 


F.        Response to Proposed Overpayment Recovery ........... .... ................ .... ............ .. ..................... .............. 8 


G.        Conclusion .............. ............................................................................................................................ 9 


Appendix: State Policy Changes and Compliance Measures..................................................................... Ai 

                                                                                                           Page 3 of19




A. Introduction
    In December 2011, the Department of Health and Human Services (" DHHS") Office of Inspector General
    ("DIG") issued a draft report entitled " Review of New Mexico Medicaid Personal Care Services Provided
    by Clovis Homecare, Inc." ("Draft Audit") covering claims from October 1, 2008, to March 31, 2009. The
    Medical Assistance Division ("MAD") of the New Mexico Human Services Department ("HSD") has
reviewed the Draft Audit, and collected information from the Coordination of long Term Services
program ("CoLTS") regarding the claims Clovis Homecare, Inc. ("Clovis") submitted.                 MAD also
requested, received, and reviewed documentation from Clovis offered in support of its response to the
Draft Audit, and information from the DIG on the amount it recommended recouping for each allegedly
deficient claim.

B. Summary of Response
MAD strongly disagrees that the DIG's findings support the recommendation of the Draft Audit that the
State return $404,817 in Federal funds received in response to the Clovis claims and paid to the
provider. The Draft Audit identifies six categories of "deficiencies" with respect to 100 reviewed claims,
selected on a random basis. It concluded that the claims (or portions of claims) affected by these
                                       1
"deficiencies" amounted to $4,714.         It then extrapolated this conclusion to the universe of Clovis's
claims for the five-month review period, to arrive at the amount of $404,817 in alleged "overpayments"
of Federal funds for the full universe of 17,992 Clovis claims during the audit period.

We respectfully disagree with this conclusion. Five of the six categories of " deficiencies," and 23 of the
24 alleged " deficiencies," involved no demonstrated overpayment of any kind.             Rather, the findings
were only that particular documents were missing from the reviewed file. But the overall evidence
produced by the review clearly demonstrates that the underlying personal care services were valid,
allowable, and rendered to eligible beneficiaries, notwithstanding the absence of certain documents.
Moreover, for the most part, the missing documentation related not to federal requirements but to
state requirements. The applicable state law does not require recovery of payments made to providers
even if there was a violation of those state requirements .2 When the State had determined that
violations of these requirements have occurred, the Qua lity Assistance Bureau ("QAB") has a policy and
practice of issuing corrective action plans to prevent further violations. 3 For the remaining category,
whi le MAD acknowledges that the findings support a conclusion that there was a single overpayment of


1 The Draft Audit examined only Clovis's claims for personal care services. Throughout this response,
when this response refers to the amount of a claim, it refers only to the amount included on the
personal care services line of each claim and excludes any amounts claimed for other Medicaid services.
2. The State documentation regulations in effect during the audit period required recoupment only if HSD
audits "show inappropriate billing/or services," N.M . Admin. Code § 8.315.4.11A(14) (2004) (emphasis
added). The current State regulations similarly focus upon whether the underlying services were in fact
rendered by requiring "recoupment of funds . . . when audits show inappropriate billing or inappropriate
documentation/or services." Id. § 8.315.4.12B(5) (2012) (emphasis added).
3Nothing in this statement is intended to address situations covered by Medicaid fraud and abuse
provisions.

                                                                                                   Page 1 of9
                                                                                                             Page 4 of19




$21.21, they do not support extrapolating that co nclusio n to the universe of all claims submitted during
the five-month review period. Rather than revealing a pattern of misclaiming or any systemic failure on
the part of Clovis, the Draft Report identified only one instance in which unsupported units were billed.
The DIG's findings concerning unsupported attendant service units are too isolated, and the sole
instan ce in which unsupported units were found clea rly an aberration from t he providers normal
practices.

Overall, the findings of the Draft Audit reveal a provider that has been highly compliant with applicable
requirements. At most, the few and mostly isolated "deficiencies," in significant part reflecting no more
that the inability to document every instance of compliance, warrant the State insisting upon a
corrective action plan from the provider to assure its compliance with state requirements, its
maintenance of complete records, and its careful review of claims to avoid submitting cla ims for services
not eligible for reimbursement. In fact, as detailed in Clovis's response letter, it has already enacted a 3­
point corrective action plan to ensure face-to-face supervisory visits are performed for each client and
taken corrective actions to ensure future compliance with the tuberculosis testing, and CPR and first aid
certification requirements.

In addition, MAD challenges the OIG's f indings concerning the specific claims selected for review
because Clovis has been able to provide documentation demonstrating that it complied with the
applica ble laws. For the reasons detailed below, it wo uld be unreasonable for the Federal government
to require recoupment of over 11 percent of the Federal funds that Clovis received during the audit
period for administering    peo services ($3,638,976).
C. Background
MAD is the single state agency responsible for administering New Mexico's participation in the Medicaid
program. In 1999, the State began providing     pca services to ce rtain Med icaid-eligible   individuals with a
disability or functional limitation who require assistance to enable them to live at home, rather than
being institutionalized .   PCO services are made available under New Mexico's State Medicaid Plan
approved by the Centers for Medicare and Medicaid Services ("CMS").

Pursuant to 42 C.F.R. § 440.167, New Mexico has developed              pca   eligibility and service criteria.
Individuals aged 21 or older who are eligible for full Medicaid coverage may receive      pca services when
they requi re assistance with at least 2 Activities of Daily Living ("ADLs"), as determined by a contracted
Third Party Assessor ("TPA") .     PCO beneficiaries work with a Medica id-approved provider to se lect a
caregiver or attendant. Caregivers and attendants may be friends or family members, so long as they
have no financia l responsibility for the beneficiaries (e.g. spouses).       State law provides that the
consumer's lega l representative must receive approval from MAD to be the paid caregiver. Service
delivery models include Consumer Self-Directed or Consumer Delegated models.

Although for most of the time pe riod covered by the Draft Audit New Mexico's Medicaid Fiscal Agent for
claims payment processing processed all PCO provider bills under a fee-for-service model, on August 1,
2008, the State implemented the CoLTS Managed Care System that covers all primary, acute, and long­
term Medicaid and Medicare services, including PCO services. The CoLTS program operates under CMS­
authorized, concurrent 1915{b) and (c) Medicaid waivers. Two managed care organizations ("MCOs")­


                                                                                                    Page 2 of9
                                                                                                            Page 50f19




    AMERIGROUP Community Care Inc. and EVERCARE of New Mexico Inc.-have contracts to provide
    CoLTS services.       The State phased-in CoLTS in certain geographic areas over the fi rst year of
    implementation, and phased in all counties by Aprill, 2009.


    D. 	 Alleged Clovis Deficiencies
The DIG's Draft Audit concl uded that MAD did not always ensure that Clovis's claims for Medicaid         pea
services complied with applicable Federal and State requirements. The auditors determined that of the
100 sample claims from October 1, 2008, through March 31, 2009, that were examined, 76 (totaling
$21,291) were in full compliance, and 24 (totaling $4,714) were not. The auditors further determined
that 1 of the 24 non-compliant claims was partially allowable. The Draft Audit identified 28 alleged
deficiencies contained in those 24 claims which fall into the following 6 catego ries:

        • 	 Missing documentation of attendants' completion of tuberculosis testing (20 claims)
        • 	 Missing evidence of supervisory visits (4 claims)
        • 	 Missing attendants' cardiopulmonary resuscitatio n ("CPR") and/or first aid certification (1 claim)
            Unsupported attendant service units (1 claim)
        • 	 Missing physician's authorization (1 cla im )
        • 	 Missing prior approval for personal care services provided by a legal guardian or attorney-in­
            fact (1 claim)

AS is shown in the following paragraphs, while one of the alleged categories of deficiencies indicates
that a portion of a single claim was paid that shou ld not have been paid, all of the remaining categories
involved technical or documentation problems that do not support a conclusio n that payments were
                      4
improperly made.

We address each of the six categories of "deficiencies" below.

1. 	 Missing Tuberculosis Testing Documentation
Draft Aud it Finding:        The OIG auditors found that for 20 of the 100 sampled claims Clovis lacked
documentation showing that attendants had received a tuberculosis ("T8") skin test or chest x-ray and
tested negative for TB, or been appropriately treated before they furnished services to Medicaid
reCipients, as required by section 8.315.4.11A(37) of the New Mexico Administrative Code ("NMAC").
The cla im s in question total $3,974.77. The Draft Audit would reject these claims in their entirety.

MAD Response : Federal law does not require attenda nts to maintain documentation of TB test s, x-rays,
and treatment administered to attendants before they furnish services; therefore, th ere is no
justification for withholding federal funds based on a finding that such training was not provided. Even
assuming that the State requirement had been violated, State Jaw does not require that payments be


4   The Draft Audit also identified one type of deficiency in Clovis's claims that did not violate either
Federal or State law in effect at the time the claims were made:              Charging for attendants' meal
preparation and housekeeping services when attendants and recipients live in the same home (25
claims).


                                                                                                   Page30f9
                                                                                                          Page 60f19




withhe ld from providers when the requirement has not been met.             In such cases, the QAB issues
corrective action plans for vio lations rather than recouping payments for any services rendered by the
attendants for whom TB documentation is missing. Enforcement of a State training requirement by
withholding Federal funds, when it is otherwise apparent that eligible services were provided to an
eligible recipient in amounts authorized by a service plan, is unwarranted.

In these 20 cases, the record demonstrates that eligible services were provided to eligible recipients in
an appropriate setting in accordance with a physician-approved plan of care. This satisfies the Federal
requirements for federal financial participation (UFFP"J, and the failure to meet a State tuberculosis
testing requirement, even if proved, does not justify withholding that FFP. Nor does the lack of records
indicate that PCO services were furnished by attendants with TB. In 10 of the cases, Clovis provided
documentation showing that the attendants tested negative for TB after the service dates in question
and thus did not have TB. The lack of TB testing documentation dating from the attendants' date of hire
merely indicates that Clovis had lost or misplaced the records, not that it failed to systematically require
attendants to be tested for TB when they were hired.

Clovis has also voluntary undertaken corrective action to ensure future comp liance with the State TB
testing documentation requirement. It has contacted all current attendants to ensure that each has
undergone a TB test or chest x-ray in the past 10 years and has documentation of this in his or her file.
As a further check, Clovis will conduct a semi-a nnual internal audit of attendant medical files to ve rify
that such documentation exists in each attendant file. In addition, new hires are notified during the
application process that they must have TB tests performed and read within a week of hire, and Clovis
will ensure that attendant files lacking such testing re su lts shall be deemed to be incomplete.

2. Missing Documentation of Supervisory Visits
Draft Audit Finding: Th e OIG auditors determined that for 4 of the 100 sampled claims Clovis did not
provide evidence that attendant supervisors had met with recipients and/or their perso nal
representatives in the recipients' homes at least once a month, as required by section 8.31S.4.11A(31)
of the NMAC. The allegedly overpaid portion of the claim in question amounts to $1,028.59. The Draft
Aud it would reject these claims in their entirety.

MAD Response: Clovis provided monthly attendant supervisor visit forms for the four claims at issue.
In each case, the supervisor had completed a form within 30 days of the dates of service; thus, the
specific claims in question complied with the monthly supervisor visit requirement. s

Moreover, Federal law does not require that providers maintain documentation of monthly attendant
supervisor visits in recipients' homes; thus, there is no justification for withholding federal funds based


S The fa ct that Clovis was unable to provide a comp leted form detailing a face-to-face supervisor visit for
certain ca lendar months in wh ich the beneficiaries at issue in the four claims received PCO services, and
thus, that Clovis may be missing documentation for other claims for these beneficiaries shou ld not be
included in the DIG's findings because those claims were not among the sampled claims. Even if they
were, the claims should not be rejected in their entirety but should be decreased in proportion to the
percentage of monthly supervisor visit forms Clovis has been unable to provide.

                                                                                                    Page40f9
                                                                                                           Page 70f19




on a finding that such training was not provided. Even assuming that the State requirement had been
violated, State law does not require withholding payment from providers when such documentation is
missing, and the QAB issues corrective action plans for such violations rather than recouping payments
for any services rendered by the attendants in question.

In addition, even if the Draft Report's findings are correct, the lack of documentation of monthly
attendant supervisor visits does not demonstrate that these visits did not take place, but that certain
forms were misplaced or lost for the cases in question. In one case (sample item no. 4), although a
supervisor visit form for a given month in which the beneficiary received services was missing, Clovis
provided the supervisor's mileage log for that month which indicates that the supervisor visited the
specific beneficiary in that month, indicating that the supervisory visit in fact took place. Clovis's ability
to provide such records for 96 of the 100 sampled claims, and even records for several months of service
for the beneficiaries in the four cases at issue, shows that it has had a pattern and practice of requiring
such documentation.

3. Missing CPR or First Aid Certification
Draft Audit Finding: The DIG auditors determined that in 1 of the 100 sampled claims Clovis could not
provide copies of the attendant's CPR or first aid certification as required by section 8.315.4.11A(2)(d) of
the NMAC. The amount of the claim in question is $141.40. The Draft Audit would reject this claim in its
entirety.

MAO Response: There is no Federal requirement that an attendant be certified for CPR or first aid, and
therefore no justification for withholding Federal funds based on a finding that such approval was not
provided.    Even if the State requirement had been violated, State law does not require withholding
payment from providers for the services furnished by the attendant.

Moreover, the existence of the certification in 99 of the 100 case files reviewed demonstrates that the
provider uniformly required that certification to be obtained.        Even in the case in question, Clovis
provided documentation showing that it discovered that the attendant's CPR and first aid certification
was lapsing and made numerous good faith efforts to contacted the attendant to renew this
certification; the attendant completed this process within 6 months of the service dates.           Far from
indicating that Clovis systematica lly fai ls to comply with the CPR and first aid certification requirement,
this case is an isolated case in which Clovis was not able to ensure that the provider renewed the
certification in time.

Clovis has also taken substantial corrective actions to prevent future violations of the State certification
requirement. It has voluntarily conducted an internal audit of attendant audit to verify that attendants
have current certifications, and continues to annually review files to determine whether certifications
have been completed. Clovis has instructed its Human Resources Director to not place new hires with
beneficiaries until they have been scheduled for a CPR or first aid course, and to review the internal
certification tracking database monthly to ensure that attendants' certifications do not lapse.
Attendants whose certifications are due to expire within the year will be notified by phone and in
writing.


                                                                                                  Page 5 of9
                                                                                                           Page 80f19




4. Unsupported Attendant Service Units
Draft Aud it Finding: The OIG determined that for 1 of the 100 sampled cla ims Clovis fai led to provide
documentation supporting the number of units claimed for attendant services. Th e DIG did not identify
the portion of t his single claim wh ich is allegedly deficient for unsupported attendan t service units.
Because the same samp le claim is alleged to have missing physician authorization, the OIG recommends
withholding the entire amount of this claim, $162.61.

MAD Response: MAD determined that in the months preced ing the time period in which the services
provided in the sole claim at issue, the State had reduced the number of allowable household services to
3.5 hours per week. MAD asked Clovis to reexamine approved claims covering the week in which the
allegedly deficient claim's underlying services we re provided. Clovis informed MAD that 1.5 hours were
erroneously allotted during this week. MAD has concluded that Clovis was overpaid $21.21 for the 1.5
hours of overbilled services.      MAD notes, however, t hat this overbilling is, at most, an isolated
occurrence at Clovis and the amount of the overpaymen t is only a minute percentage-less than 0.6
percent-of the total   pca cla ims reviewed    ($26,005), and a result of Clovis adjusting over to the State's
new weekly cap on allowable household services.

5. Missing Physician Authorization
Draft Audit Finding: The DIG aud itors found that for 1 of the 100 sampled claims Clovis did not have
records demonstrating that the recipient had obtained prior physician authorization for the furnished
services, as required by 42 C.F.R. § 440.167 and section 8.315.4. 16A(1} of t he NMAC. The amount of the
claim in question is $162.61. Th e Draft Audit wou ld reject this cla im in its entirety.

MAD Response :       Clovis produced a physician authorization form (for wh ich the copy lacked an
authoriza tion signature for the U.R. contractor) and an extension of authorization letter for the 1 case,
the latter of whic h authorized services on t he dates services we re actually furnished . Rather than
demonstrating that Clovis f ailed to obtain physician authorization for the services in question, the far
more reasonable conclusion from these facts is that the original physician authorization fo rm conta ining
the U.R. contractor authorization was lost or misplaced.

The single claim at issue does not have the deficiency identified in the Draft Report: The physician in
question authorized the rendered services. Moreover, t he U.R. contractor, a th ird party, had the duty of
signing oft on the physician authorization sheet. In addition, there is no basis upon which to conclude
that Clovis has a systemic problem of not obtaining or keeping reco rds of physician authorizations or UR
co ntracto r sign-ofts. The requisite forms were apparently found in the other 99 case records reviewed.
The existence of the necessary documentation in 99 of the 100 sampled cases is powerful evidence that
Clovis's uniform practice was to secure such authorizations prior to rendering t he service. In fact, it is
difficult to see how the service co uld be provided in t he absence of a physician's authorization, wh ich
would normally accompany the development of the service plan for th e recipient.

6. Missing Prior Approval of Legal Guardian or Attorney-in-Fact Services
Draft Audit Finding: The Draft Aud it determined t hat for 1 of the 100 sampled claims Clovis did not
provide evidence that MAD iss ued prior approval for personal care services provided by the recipient's

                                                                                                  Page 6 of 9
                                                                                                              Page 90f19




legal guardian or attorney-in-fact, as required by section 8.31S.4.11A (21) of the NMAC. The amount of
the allegedly deficient claim is $141.40. The Draft Audit wou ld reject this claim in its entirety.

MAD Response:      Federal law does not require prior State agency approval for a legal guardian or
attorney-in-fact to provide paid personal care services, and therefore there is no justification for
withholding Federal funds based on a finding that such approval was not provided.            Even jf the State
requi rement had been vio lated, State law does not require withholding payment f rom providers where
the requirement is not met.

The fact that there is only one case of the 100 sampled cases in wh ich prior approval of legal guardian or
attorney-in-fact services is alleged to be missing demonstrates that Clovis uniformly requires that such
prior approva l be obtained and documented.

In the sole case in question, the record documents that eligible services were provided to eligible
recipients in an appropriate se tting, in accordance with a physician-approved plan of care. Th is satisfies
the Federal requirements fo r FFP, and the failure to meet a State requirement of prior approval for legal
guardians, even if proved, does not justify w ithholding that FFP.

7. Other peo Matters
Draft Audit Finding: The DIG auditors found that for 25 of the sampled claims Clovis charged a total of
$2,404 in attendants' meal preparation and housekeeping services even though the attendants and
recipients Jived in t he same home. The alG determined that at the time, such claims did not violate
Federal or State law; however, the State has since amended sections 8.315.4.16 and 8.315.3.17 of the
NMAC to prohibit such claims.

MAD Response: MAD co ncurs that the claims for meal preparation and housekeeping services provided
by an attendant living in the recipient's home did not violate Federal or State law in effect during the
time period covered by the Draft Aud it.


E. State Policy Changes and Compliance Measures
AS shown above, since 2009, pca services have been provided in New Mexico entirely through the
Co LTS Managed Care System. Two MCDs have been responsible for the delivery of the services and f or
assu ring provider compliance with app licable state and federal requirements. Yet MAD retains ultimate
responsibility for this, as well as all other aspects of th e State' s Medicaid program, and has mounted a
range of actions to assure that pca services are being provided prope rly and in com pliance with law and
regulations. Th e State's continuing efforts in this area have in cluded a se ries of regulation changes
adopted in 2010 and 2011, and implementation in 2010 of a Monthly pca Billing and Admi nistrative
Workgroup to eva luate and spur improvement in program performance.               In addition, the State has
taken a number of co rrective measures that focus on the areas addressed by the Draft Audit findings, all
of which have been intended to improve provider performance.

The State's efforts at improved performance are continuing.          It has begun planning for an evidence­
based program monitoring system that will enhance t he quality of pca services.              In addition, it is

                                                                                                      Page 7 of 9
                                                                                                             Page 10 of19




exp loring the implementation of a telephonic and GPS tracking system, like that used in other states, to
allow for automatic generation of    pea     provider timesheet entries. There is a $2 million cost associated
with this enhancement.

The Appendix to this Response describes in greater detail the steps that the State ha s taken and plans
on taking in the near future to assure improved program performance.              The State is confident that
these steps have contributed and will continue to contribut e to the high level of performance and
com pli ance th at has characterized its   pea providers, including Clovis.

F. Response to Proposed Overpayment Recovery
After calculating that 24 cla im s or portions of claims derived from the sample resulted in overpayments
of $4,714, the Draft Audit used "st atistical software" to extrapolate the total refund due to the Federal
Government to be $404,817 in FFP for alleged unallowable PCO service claim s by Clovis from October 1,
2008 through March 31, 2009. The State takes strong exception t o this conclusion.

As shown above, there is no ju stification for recovery of any Federal funds, with or without
extrapolation, with regard to 23 of the 24 questioned claims, which represent all of the $4,714 identified
as overpayments by the Draft Audit. 6 For these claims, the fin dings of the Draft Audit do not support a
conclusio n that payments were improperly made. Rather, they show that only a minute number of files
are miSSing a document that would confirm the satisfaction of a particu lar requirement.                     The
overwhelming demonstration in the 100 sample case records of com pli ance with the requirements in
question (compliance in 99% cases for securing CPR and first aid certification, physician authorization,
approval for legal guardia n service delivery, and compliance in 96% of cases for providing evidence of
monthly supervisory visits) negates any conclusion of non·compliance in the few instances in which a
document was missing from a file.

Further, to t he extent the absence of documentation in the case file relates to State requirements,
rather than to provisions of the Federal regulations (as in the cases of t he CPR and service training or the
approva l for legal guardian service delivery) it is inapprop riate to withhold Federal funding.     Not hing in
State law requires that funds necessa rily be withheld in any instance where a case record fa ils to
docume nt compliance wit h these State requirements.

As to the portions of the Draft Aud it relating t o excessive billing, the findings reveal no pattern or
practice of non·compliance by Clovis. To t he contrary, t he OIG auditors identified only one instance of
overbilling. Even if t he Draft Aud it's findings are correct, only $21.21 of th e total of $26,005 in PCO



6 The Draft Aud it concl uded that 4 of the sampled claims each had 2 types of " deficiencies": 2 claims
had missing evidence of TB t esting and supervisory visit s, another had missing evidence of CPR or first
aid ce rtification and prior State approval of PCO services provided by a legal guard ian or attorney·in­
fact, and a final claim had unsupported units of payment and missing evidence of prior physician
authorization. In the last instance, the Draft Audit used the larger of the "deficiency" amounts (e ntirety
of the claim for missing prior physician authorization form) in calc ulating the total Federal share of the
23 "deficient " claims.

                                                                                                    Page80f9
                                                                                                             Page 11 of 19




claims reviewed in the audit represented amounts claims in excess of the time reflected on the
timesheets or that was authorized by the service plan. This wou ld mean that Clovis's error rate is on ly
0.08 percent, far less than the tolerance levels established in various quality contro l programs in
Medicaid and other federal funded programs.      See, e.g., 42 C.F.R. § 431.865 (establishing a 3% tolerance
limit for eligibility errors in the Medicaid Eligibility Quality Control program; 45 C.F.R. §205.42 (1980)
(esta blishing a 4% tolerance limit for payment errors in the Aid to Families with Dependent Chi ldren
program).    In these programs, it is standard federal policy, when overall performance is within the
established tolerance limits, to seek recoveries only for specific overpayments actually identified, and
not to extrapolate the results of a review to the caseload as a whole. That policy should be applied in
this case, where the level of erroneous payments is as low as it is.

It should also be mentioned that extrapo lation of the resu lts to the caseload as a whole to recover a
substantia l amount from the State is inappropriate given the continuing efforts of the State (detailed in
the Appendix) to assure high quality and compliant performance by            pca   providers, even after the
conversion to a managed care delivery system.


G. Conclusion
The resu lts of the OIG investigation, reflected in the Draft Audit, are encouraging to MAD, for they
demonstrate an extremely high level of comp liance by Clovis.             While there is always room for
improvement and the State intends to continue its long standing efforts to enhance performance of its
PCO providers, the results of the Federal review should provide comfort to Federal officials that Federal
funds are being properly spent in the case of Clovis's     pca   services. The State would be prepared to
repay $16.38/ the federa l sha re associated with the sole instance of overbilling.




7 This amount was calculated by applying the FMAP rate for Federal Fiscal Year 2009 of 77.24 percent to

the sa mple case overpayment of $162.61.


                                                                                                   Page 9 of 9
                                                                                                          Page 12 of 19




           Appendix: State Policy Changes and Compliance Measures
1. 	 Overall    peo Improvements
(a) Regu lation Changes
In the last year, the state has revised and improved the      pea regulations three times to enhance the
State's ability to ensure that the claims submitted by      pea providers comply with Federal and State
regulations .

September 15,2010 pea Regulation Changes:
    •	   Added language to the CoLTS managed care regulations clarifying the respective roles and
         responsibilities of MCOs and TPAs;
    • 	 Added language requiring Meos to identify Natural Supports; and
    • 	 Added language requiring MCOs to assess services provided to pea consumers who share a
        home.

December 30, 2010    pea Regulation Changes:
    • 	 Added language throughout the pea regulations clarifying that an inpatient or resident of a
        hospital, nursing faci lity, Intermediate Care Facil ity for the Mentally Retarded (UICF-MR"),
        mental health facility, correctional facility or other institutional setting (except for recipients of
        community transition goods and services) is not eligible for pca services;
    • 	 Added language clarifying that duplicative pca services are not allowed for individuals receiving
        the same or similar services by other sources, including natural supports;
    • 	 Added cognitive assistance as a service w ithin each ADL and IADL service rather than a stand­
        alone service;
    •	   Required a legal representative for self-directed individuals who cannot make their own choices
         or communicate thei r responses;
    •	 Restructured consumer delegated and directed regulations to avoid repetition and to describe
       adequately the roles and responsibilities of pca agencies, caregivers, and beneficiaries;
   • 	 Replaced the MAD 07S Medica l Assessment Form with the Income Support Division (UISD" ) 379
       Medical Assessment Form, which can be comp leted using form fields for entry;
   • 	 Clarified which pca services are or are not covered by Medicaid;
   • 	 Reduced the hours in which temporary authorization is given, and made this requirement
       applicable to all new pca recipients; and
   •	    Included in the regulation MAD 055, the pca Service Guide, which helps standardize and ensure
         the accuracy of the calculation of time in which pca services are furnished. For each pca
         recipient function level, the Guide provides a narrative or worksheet establishing standard
         service time ranges.

September 15, 2011 pca Regulation Changes:
   •	    Revised the MAD 055 (" PCa Service Guide" ) to combine the pre-existing 10 pca services into 6
         service categories, and to determine appropriate service time ranges for ea ch service:
             1. 	 Hygiene and Grooming-Bathing, dreSSing, grooming and doctor prescribed skin care;
             2. 	 Bowel and Bladder;
             3. 	 Preparing Meals;
             4. 	 Eating;



                                                                                                Page Al of AS
                                                                                                       Page 13 of19




            5. 	 Household and Support Service-Cleaning, laundry, shopping and minor up-keep for
                medical equipment; and
            6. 	 Supportive Mobility Assistance-Special help transferring from one place to another,
                 walking, and changing positions, provided that such assistance is not part of another
                pea service.
        Each service includes time spent on " Mobility Assistance" and spoken reminders (called
        "Prompting and Cueing");
    • 	 Prohibited prior authorizations ("PAU) that are retroactive or extend beyond the level of care
        ("lOC") authorization period;
    • 	 Permitted an   Mea to authorize time outside of the time set forth   in the MAD 055 for furnishing
        services to a beneficiary based on his or her verified medical and clinical need{s);
    • 	 Required MCOs to discuss with the consumer the results of the service assessment, function
        level for each pca task on the MAD 055, and the applicable service time range during the in­
        home service assessment;
    • 	 Required MCas to make a good faith effort to conduct a pre-hearing conference for
        beneficiaries who request a State fair hearing. During the pre-hearing conference, the Mca
        must explain how it applied the pca regulations, and examine whether additional service time is
        necessary based on a consumer' s verified medical and clinical need(s);
    • 	 Clarified that under section 8.352.2 of the NMAC, a pca recipient who disagrees with the
        authorized number of hours may utilize the ColTS MCa grievance and appeal process and the
        State's fair hearing process consecutively or concurrently; and
    • 	 Clarified that the beneficiary, not the provider, is responsible for repaying the cost of continuing
        benefits pending a fair hearing decision.

(bl PC O Billing a nd Admini strative Workgroup
In 2010, in addition to amending the pca regulations, MAD implemented a new Monthly pca Billing and
Administrative Workgroup to evaluate pca provider and ColTS MCa billing and administrative issues,
and to improve the program's performance. The Workgroup was made up of several pca providers,
MCa staff, and representatives from several State Bureaus (ColTS, long Term Care Services and Support
("lTSSB"), Quality Assurance, Contract Administration and Program Information).

The Workgroup identifies systemic problems in the pca program, root causes for such problems, and
possible solutions. In particular, the Workgroup has been tasked with improving the following areas of
the PCO program:

   •	   Eligibility;
   •	   MCa Assessments/Authorizations/Hours;
   •	   TPAjlevel of Care;
   •	   Service Coordination;
   •	   Transfers from one agency to another;
   •	   Provider Education;
   •	   Billing; and
   •	   Fraud and Program Integrity.

The Workgroup has developed a PCO survey and used the findings from the survey to further refine
areas of needed improvement. Many of the regulation changes identified above originated from this


                                                                                               Page A2 of AS
                                                                                                             Page 14 of 19




Workgroup to correct error-prone areas.         The committee members have also developed work and
process flows to help clarify    pea   roles and responsibilities, and identify opportunities for program
improvement.

The Workgroup is chai red by the CoLTS Bureau Chief, in collaboration w ith peo providers and MCOs.
The   pea Service   manager updates the Workgroup's work plan to ensure that it is accountable for, and
successfully addresses the areas of the   peo program listed above.

(c) Continuous Quality Improvement ("CQI") Model for PCO

MAD recognizes that an evidence-based approach to program monitoring is one of the best ways to
ensure that   peo services are administered   in the manner specified in the Federal and State regulations,
and safeguard participants' health and welfare.           MAD will design and adopt an evidence-based
approach to PCO quality modeled after CMS's CQI model for Home and Community Sased Services
("HCSS") waivers. Planning for this initiative will begin in October 2011, and a reporting mechanism will
be in place by January 2012.

MAO'S CQI model will impose requ irements similar to the statutory assurances states make to eMS as a
condition of approval for a HCSS waiver through assurances and sub-assurances structured in a manner
similar to the following:

                         Example #l-Modeling PCO cQr after HCBS Waivers
                           Persons enrolled in pea have needs consistent with an instituti onal level of
1. Level of Care
                           care.
                           Participants have a service plan that is appropriate to their needs and
~ . Service Plan           preferences, and receive the services or supports specified in the service plan.
3. Provider
                            pea providers are qualified to deliver services or supports.
      Qualifications
                            Participants' health and welfare are safeguarded, and pca Attendants are
4.   Health and Welfare
                            trained, certified and qualified to provide PCO services.
5. Financial                Claims for PCO services are paid according to State and CoLTS Mea payment
   Accountability           methodologies specified in the regulations and MCa handbooks.
6. Administrative           MAD is actively invo lved in overseei ng pea services and ultimately
   Authol'ity               responsible for all facets of such services.


                                     Example # 2-8ub-Assurances
1. Level of Care            The levels of care of enrolled participants are reeval uated at least annually
                            •    Service plans and lPoCs are updated or revised at least annually and upon
                                 parti ci pant need .
2. Service P lan:
                            0    Services are de livered in accordance with the IPoC, including the type,
   Individua l Plan of
                                scope, amount, and frequency specified in the service plan .
   Ca re ("lPoC")
                            0   Participants are afforded choice between the de legated and self-di rected
                                services model, and providers.
                            T he state and Mea veri fy that providers initially and continually meet
3. Provider
                            required licensure and/or certifi cation standards, and adhere to other state
   Qualifications
                            standards before waiver services are furn ished.


                                                                                                Page A3 of A8
                                                                                                              Page150f19




I                           The state and MeO verifies that attendants initially and contin ua lly meet
4. Attendant                required tra ining and certification standards (including CPR and criminal
   Qualifications           hi story screening), and adhere to other state standards before peo services are
                            adm ini stered.

Similar to the   Hess   CQJ model, MAD wil l use "Discovery" methodology in the monitoring process to
uncover deviations from program design.          Discovery will allow Program managers to know when
program processes are not being followed, and when the assurances and sub-assurances are not being
met.   MAD will establish performance measures that (1) are measurable and ca n be included as a
metric, (2) have facia l validity, (3) are based on a correct unit of analysis, and (4) are representative.
MAD wi ll further identify (1) the data source(s) for each performance measure; (2) a method for
assuring that the data will be representative; (3) information on the party or parties respo nsible for
collecting, reviewing, and using the data to manage t he program; and (4) t he freq uency with wh ich
summary (i.e ., aggregated) reports will be generated and reviewed.

When the Stat e identifies instances in which the pca program is not operating as in tended and does not
com ply with State and Federal regulations, the State will initiate remediation actions to address and
resolve all uncovered, individ ual problems. The pca Billing and Administrative Workgroup wi ll review
and advise on t he remediation process.


2. Corrective Measures Relating to Clovis Deficiencies
The State has taken seve ral co rrective measures tha t address the deficiencies id entified in the Draft
Audit, and provide assurance that claims submitted by Clovis and other pca service providers com ply
with Fed eral and State law.

Cal TB Testing

Beginning in 2009, the training requ ired of new pca providers has emphasized the importa nce of
com pliance with the T8 t esting requ irement . Effe ctive December 2010, MAD's revised the underlying
pca regulations setting forth the requirement in accordance with recommendations of the New Mexico
Depa rtment of Health ("NM DOH") and the Federal Centers for Disease Control ("CDC). Technical
ass istance documents provided at the t rainings have been posted on the ALTSD and MAD websites to
further reinforce this regulatory requirement and provide guidance on the process. Th e posted
documents include the require T8 testing form and contact information for the NMDaH T8 program.

Each CoLTS MCa-Evercare and Amerigroup-provides pea agencies with continu ing educa tion
regarding the State regulatory requirements and responsibilities. Evercare provides such education
both quarterly and monthly, and documents attendance at such events. The State is developing a
training plan f or pca providers t hat w ill include increased State oversight of the tra ining and materials
provided by the MCOs.

The MCas also st ipula t e in their contra ctual agreements that pea agencies are required to abide by all
State an d Federal rules of regulation s, including the requirement to maintain docume ntation of
com pli ance wit h t he requirement fo r TS testing of each attendant.


                                                                                                 Page A4 of A8
                                                                                                       Page 16 of 19




         Evercare's Compliance team conducts year-round desk audits of peo agencies that pull the files
         af a random samp le of agencies over a 9 to 12 month time period. If the Compliance team
         provides Quality of Care, or fraud, waste, and abuse reports, the sample size and timeframe
         reviewed may be expanded. Following the audit, the      peo agency receives eithe r an Opportunity
         Plan for Improvement or a Corrective Action Plan. Non-compliance with the latter risks
        contractual termination of the     peo agency's contract with Evercare.
        Amerigroup's Quality Management Department ("QMD") regularly reviews          peo documentation
        to investigate beneficiary comp laints, critical incidents, and other quality improvement
        initiatives. If a review indicates that pca requirements have not been met, Amerigroup's QMD
        will contact the pca agency to obtain policies and procedures for personal care attendant
        qualifications, training records, and corrective action plans explaining what steps the attendant
        can take to comply with pca requirements. If an agency's failure to comply with pca
        requirements is egregious and/or the agency does not comp ly with the request for a corrective
        action plan, Amerigroup initiates sanctions ranging from a moratorium on new authorizations
        and transfers, to termination of the peo agency's contract.

MAD also emails updates on pca compliance issues to all pca providers. These emalls are copied to
designated MCa staff and to the Executive Director of the New Mexico Association for Home and
Hospice Care ("NMAHHC"), who then forwards the updates to pca agencies through regular email
blasts to NMAHHC members.

(b) Supervisory Visits
Beginning in 2009, the tra ining required of new pca providers has emphasized the importance of
compliance with the State requirement for monthly in-home supervisory visits.          Effective December
2010, MAD's revised pca regulations to clarify this requirement and to specify what content must be
included in home visit documentation. Technical assistance documents provided at the trainings and
posted on the ALTSD and MAD websites further reinforce this regulatory requirement and provide
guidelines for a supervisory home visit.

As detailed above in (a), each CoLTS Mca provides pca agencies with continuing education regarding
the State regulatory requirements and responsibitities. The State is developing a training plan for pca
providers that will include increased oversight of the information provided by the MCas.

The Mcas stipulate in their contractua l agreements that pca agencies are required to abide by all State
and Federa l regulations, including requiring all agencies to conduct and document the monthly
supervisory home visit. As detailed above in the discussion of corrective strategies relating to the T8
testing requirement, each MCa has established strategies for assuring compliance with the monthly
supervisory home visit requirement.

(c) CPR Certification
The MCOs stipulate in their contractual agreements that pca agencies are required to abide by all State
and Federal regulations, including requiring all attendants to have current and valid CPR certifi cations.


                                                                                             Page AS of AS
                                                                                                       Page 17 of19




As detailed above in the discussion of corrective strategies relating to the annual training requirement,
Mea has established strategies for assuring compliance with the CPR certification requirement.

Beginning in 2009, the training required of new   peo providers took care to emphasize the importance of
compl iance with the requirement for CPR ce rt ification. Technical assistance documents provided at the
trainings were posted on the ALTSD and MAD websites to further reinforce this regu latory requirement.
As detailed above in the discussion of corrective strategies re lating to the TS testing requirement, the
State contin ues to provide training materials and technical assistance to       pea   agencies to improve
regulatory compliance.

As detailed above in (a), each CoLTS Mca provides pca agencies with continuing education regarding
State regulatory requirements and responsibilities. The State is developing a train ing plan for pca
providers that will include increased oversight of the information provided by the MCas.

(d) Supported Units of Payment

Following the audit period covered by the Draft Audit, pca services managed through the Co LTS
managed care con tract have significantly changed t he way that PCO services are billed and paid. Since
the transi tion to Managed Care, pca providers have been requ ired to develop an IPoC service plan in
accordance with the services authorized by t he consumer's MCa. Agencies must keep on file the MCa's
authorization for services. The amount of hours schedu led on the IPoC must match the total number of
authorized hours on the authorization. The type of services on the IPoC must match the services
authorized by the MCa. The timesheet must match the hours and services on the IPoC.

Mcas now requi re each pca agency to obtain Mca authorization for pca services and timesheets
before a claim will be paid.   Each Mea has claim processes in place that include methods fo r assuring
that no unsupported claims are paid, including data mining to review units cla imed, authorized units,
billed claims, and paid claims. In accordance with the State CoLTS contra ct, each MCa must investigate
pursuant to internal compliance procedures and report all instances of fra ud, wast e, or abuse within 5
business days of detecting suspi cious activity to MAO's Quality Assurance Bureau ("QAB").

Th e MCas in vestigative unit must employ a consistent investigative strategy that includes logical
investigative plans with defined and appropriate investigative measures. In conducting its investigatio n,
the MCa may contact the complainant to verify the allegations and request pca records from the
provider. The Mca must review and resea rch the provider's contract and claims exposure, and any
public records pertinen t to the allegations. The MCa 's report to MAO must identify the pca provider at
issue by name, address, and MCa and National Provider Identification (UNPI") numbers. In addition, the
notification provides information on the affected beneficiar(y/ies), date, source and nature of
co mplaint, approximate dollars paid, and a description of the allegations and preliminary findings. The
MCa's report constitut es a "notification of complaint."

If QAB refers the allegations to the Office of the Attorney General (NAG"), the MCa investigative uni t
assists the AG's office in a supportive ro le. If QAB does not refer the allegations to the AG's office, the
investigative unit may pursue recoupment.



                                                                                             Page A6 of A8
                                                                                                        Page18of19




Since 2008, to ensure compliance with Federal and State     pea   requirements, the State (ALTSD or MAD's
current Quality Ass urance program) has conducted site reviews of selected    pea agencies.    During these
site reviews, the State has com pared   pea providers' t irnesheets against the approved   plans of care and
Mea authorizations.   When deficiencies are identified, the State issues corrective action plans.

In addition, the revisions the State made to    pea   regu lations in September 2010 and December 2010
stressed the importance of tirnesheet accuracy. The technica l assistance documents provided at         pea
trainings, and posted on the AlTSD and MAD websites include a section on "Ensuring Timesheet
Accuracy."    The State holds quarterly trainings for providers on PCO requirements including those
relating to timesheets, and has sched uled a webinar for October 2011 on the revised regulations that
went into effect in September 2011.

As detailed above in (a), each CoLTS MCO provides PCO agencies with continuing education regarding
the State regulatory requirements and responsibilities. The State is developing a training plan for PCO
providers that will include increased oversight of the information provided by the MCOs. One of the
required co ntent areas will be ensuring timesheet accuracy in accordance with the IPoC.

CeJ   Physician Authorization

As explained above, the State's managed ca re system requires PCO providers to develop an IPoC service
plan consistent with the services authorized by the PCO, and to keep on fi le the MCO's authorization.

Each MCO tracks LaC-approved time spans authorized by the TPA and sends the authorizations to the
PCO agencies on a tracking sheet. Additionally, MCOs track the LOC expiration date so that beneficiaries
can be notified at least 120 days prior to the expiration date so the beneficiary can begin co llecting
information needed to renew the LOC. If the renewal documentation is not submitted in the next 30
days, MCOs send a second letter to the beneficiary again requesting the documentation. This letter
instructs the beneficiary to take two attached forms to his or her physician for completion, and to return
the forms to the MCO via e~ma il or fax. Each MCO also works with the state to identify any beneficiaries
for whom the LOC period is unclear to avoid gaps in the LaC process. MAD and the MCOs are currently
revising this notification process to ensure compliance with Federal regulations.

(f) Prior Approval of Legal Guardianship or Attorney-in~ Fact Services
Beginning in 2009, the training required of new PCO providers took care to emphasize the importance
and the process of approving a legal representative to be a beneficiary's paid attendant.           Effective
December 2010, MAD's revised PCO regulations clarified the difference between a personal
representative and a legal representative, whi le continuing to emphasize the need for the State's prior
approval of appointment of the legal representative. Technical assistance documents provided at the
trainings and posted on the ALTSO and MAD websites further reinforce this regulatory requirement, and
provides guidance on the information needed to obtain approval.

The MCa Service Coordinators assist in assuri ng compliance with the prior approval for paid legal
representatives requi rement. If the Service Coordinator discovers a legal representative acting in the
role of the paid attendant without obtaining prior state approval, he/she will alert the PCO agency. In

                                                                                              Page A7 of AS
                                                                                                          Page190f19




addition, if a beneficiary communicates to the Service Coordinator either at the time of assessment or
by calling the Customer Service line that he or she wishes to employ their legal representative as his or
her paid attendant, the Service Coord inato r contacts the    peo   agency, on the beneficiary's behalf, to
facilitate the process. The request is documented in the beneficiary's file.

3. Other peo Matters
When it revised the   peo   regulations in December 2010, MAD introduced a peo Service Guide to record
observations and responses to an individual's functional level and independence to perform AD Ls and
IADLs. The guide provides an impairment rating system for identifying          peo   services and service time
ranges. The guide requi res a service coordinator to identify and record whether the beneficiary shares a
household with other     pea    recipients and name the other       pea   recip ients.   The new PCO rules
strengthened the regulations to clarify that duplicative    pca   services are not allowed for individuals
receiving the same or similar services by other sources, including natural supports.

4. Planned Upgrade in Service Reporting
The State hopes to put in place a telephonic and GPS tracking system already implemented by several
other states, including New York and Washington, that wou ld enable time sheets to be automatica lly
generated. Under th is system, each day, either an attendant would call in whenever he or she begins
and finishes providing   pea   services to each beneficiary, or the attendant's location wou ld be tracked
using a GPS system to determine when the attendant was at a site to furnish services to a beneficiary.
The system would then automatically fill in the attendant's time sheets and calculate the hours the       pea
provider would claim.       Th is system should substantially reduce the potentia l fo r human errors in
entering time sheets, while minimizing the time required to complete time sheets.              The State has
estimated that this system wou ld cost approximately $2 million.




                                                                                                Page AS of AS
